  U.S. Department of Education
Office of Inspector General




Semiannual Report
   to Congress
            No. 38

 October 1, 1998 C   March 31, 1999
  U.S. Department of Education
Office of Inspector General




 Semiannual Report
    to Congress
            No. 38

October 1, 1998 —   March 31, 1999
                                                           April 28, 1999



Honorable Richard W. Riley
Secretary of Education
Washington, DC 20202


Dear Mr. Secretary:

I am pleased to submit this Semiannual Report on the activities of the Department's
Office of Inspector General (OIG) for the six-month period ending March 31, 1999.
 Submission of this report is in accordance with section 5 of the Inspector General
Act of 1978 (Public Law 95-452, as amended). The Act requires that you transmit
this report within thirty days to the appropriate congressional committees and
subcommittees, along with any comments you may wish to make.

Our efforts this period continued to advance both OIG’s and the Department’s
mission and goals, through a carefully designed program of audits, investigations
and reviews intended to help managers administer their programs and carry out
their oversight responsibilities more efficiently, effectively and economically. We
have continued to monitor closely the Department’s progress toward Year 2000
readiness, and performed risk assessments for the information systems involved in
the delivery of student financial aid to ensure that the Department is on track to
achieve Year 2000 readiness for systems supporting the student aid programs.

I look forward to continuing to work with you and Department managers as we
seek to ensure the efficiency, effectiveness and integrity of the Department’s
programs and operations.


                                       Sincerely,



                                       John P. Higgins, Jr.
                                       Acting Inspector General

Enclosure
                                     Inspector General’s
                               MESSAGE TO CONGRESS


To achieve our mission of promoting efficient and effective use of taxpayer dollars that support American
education, for the last six months we have continued to provide independent and objective assistance to
the Congress and the Secretary.

Our reviews of the Department’s Year 2000 readiness and related matters have provided the Department
independent and objective evaluations. These evaluations have helped managers focus essential
resources on the Department’s most critical information technology challenges. The Department has
made significant progress in recent months, reporting that it renovated, tested and implemented all its
mission-critical systems by the March 31, 1999 deadline set by the Office of Management and Budget.
Remaining potential risk areas, which the Department is currently addressing, include: end-to-end
testing, contingency planning, trading partner readiness, and new system functionality.

Although the Department has made a number of improvements in its information technology systems, it is
not implementing key provisions of the Clinger-Cohen Act. Full compliance will require implementing a
capital planning and investment control process, as well as a systems information technology
architecture.

In conjunction with the 1999 reauthorization of the Elementary and Secondary Education Act (ESEA), we
issued a “Perspective Paper” recommending that the new ESEA: 1) contain clearly written statutory
language, 2) include only essential requirements, and 3) incorporate necessary controls to ensure data
validity and reliability under the Government Performance and Results Act of 1993. We also used the
recommendations from the Perspective Paper to provide monitoring and reporting provisions for the
proposed Education Flexibility Partnership Act of 1999 (Ed-Flex).

Based on our audit findings and investigative experience involving fraud by student financial aid
consultants, we made a legislative recommendation to require the Department to perform an Internal
Revenue Service income data match for student financial aid applicants and their parents. Congress
included this recommendation in section 483 of the Higher Education Amendments of 1998; however, we
are concerned that to date this provision has not been implemented.

We previously reported that our audit of the Department’s financial statements, mandated to have been
completed by March 1999, would be delayed because the Department’s financial records were not ready
for audit. We only recently received the Department’s trial balance and financial statements, and now
expect to complete the audit in October, rather than August as previously reported.

We look forward to continuing to work with Congress and Departmental managers in the coming months.
We will continue to work to ensure the efficiency, effectiveness and integrity of federal education
programs.




                                        John P. Higgins, Jr.
                                        Acting Inspector General
                                                            CONTENTS


Letter to the Secretary

Inspector General's Message

Executive Summary ........................................................................................................ 1

P.L. 95-452 Reporting Requirements ............................................................................. 13

ABSTRACT 1: Significant Audits and Audit-related Activities ......................................... 14

ABSTRACT 2: Significant Prosecutive Actions Resulting from OIG Investigations… … ..23

      Statistical Tables
         Recommendations Described in Previous Semiannual Reports on Which
               Corrective Action Has Not Been Completed...............................................................................35

         ED/OIG Reports on Education Department Programs and Activities ........................................................37

         Inspector General Issued Reports with Questioned Costs..........................................................................40

         Inspector General Issued Reports with Recommendations for
                  Better Use of Funds ...................................................................................................................41

         Unresolved Reports Issued Prior to October 1, 1998.................................................................................42

         Investigation Services Cumulative Prosecutive Actions ............................................................................45

         Statistical Profile .....................................................................................................................................50
                       EXECUTIVE SUMMARY

During the six-month period covered by this report, the Office of Inspector
General (OIG) continued to direct its activities and resources to the most critical
issues facing the Department. Our audit efforts this period focused on
information technology emphasizing Year 2000 reviews. In the area of
elementary and secondary education, we issued An OIG Perspective on the
Reauthorization of the Elementary and Secondary Education Act [ESEA], which
reflects our most recent work in reviewing ESEA programs. We also performed
other reviews in elementary and secondary education and student financial
assistance programs stressing accountability issues, to ensure that Department of
Education (ED) programs are administered with efficiency, effectiveness and
integrity.

To more clearly delineate the strategic focus of our efforts during the period, the
accomplishments highlighted in this Executive Summary are organized according
to the goals of our Strategic Plan. More detailed descriptions of these and other
OIG work products and activities may be found in Abstract 1, Significant Audits
and Audit-related Activities, and Abstract 2, Significant Prosecutive Actions
Resulting from OIG Investigations.


      GOAL 1: PROGRAMS AND OPERATIONS IMPROVEMENT
    OIG products and services are used by the Department of Education,
      Congress and other interested parties to improve the efficiency,
                 effectiveness and integrity of education
                        programs and operations.

INFORMATION TECHNOLOGY
OIG continued to focus efforts on the Department’s management of information
technology. During this period, we closely monitored the Department’s progress
toward Year 2000 readiness and performed readiness assessments at guaranty
agencies and other external trading partners. We also continued our reviews of
the Grants Administration and Payment System and concluded audits on the
development of the Postsecondary Education Participants System and the Direct
Loan Origination and Consolidation Systems.

♦    YEAR 2000 READINESS
The Department made significant progress in preparing for the Year 2000 and has
reported that all mission-critical systems were renovated, tested and implemented
by the March 31, 1999 deadline set by the Office of Management and Budget.
During this period, OIG monitored the progress of the Department’s renovation


                                         1
effort and reported on the readiness of several guaranty agencies and other trading
partners.

     – Title IV programs risk assessment (S11-80014)
In January 1999, we completed a Year 2000-readiness risk assessment for the 13
mission-critical systems involved in the delivery of student financial aid. We
reported that, except for minor issues, the work of independent verification and
validation contractors supported the Department’s conclusion that 10 of the 13
systems were renovated, validated and implemented. We also reported that the
Department was on track to achieve Year 2000 readiness for systems supporting
student financial aid programs, contingent on its ability to adequately address four
risk areas: 1) completion of end-to-end testing, 2) readiness of external trading
partners, 3) completion of contingency planning, and 4) monitoring of new
systems development.

     – "Funding the Year 2000 Conversion, A Report on ED's Y2K Cost Estimates"
       (ACN 11-80011)
We were unable to determine that the Department’s August 1998 estimated Year
2000 project costs of $38 million were reasonable because the Department did not
follow prescribed methodologies or update estimates to reflect actual
expenditures. Additionally, there was uncertainty associated with the cost of
contingency plans that had not yet been developed. The Department did not
receive significant funding earmarked for the Year 2000 readiness effort and
therefore paid Fiscal Year 1998 Year 2000-related contract costs with existing
appropriations. The absence of a capital planning and investment control process,
required by the Clinger-Cohen Act, prevented us from evaluating the impact that
funding the Year 2000 readiness project had on other Departmental operations.
We recommended improvements to the estimation process and the development
of a funding strategy to ensure that future costs, including contingencies, are
sufficiently funded.

     –   Readiness of trading partners
We conducted reviews of Year 2000 readiness at selected Department trading
partners and communicated the results to the Department to assist in its
development of contingency plans. During this period, we completed reviews at
four guaranty agencies and one public school district. Generally, we found the
progress at these entities to be satisfactory, except for one guaranty agency that
we assessed as cautionary. Issues identified at some of these agencies were
similar to those facing the Department: 1) data exchanges, 2) contingency
planning, and 3) risks associated with new systems. We will be working with the
Department to assess the Year 2000 readiness at additional guaranty agencies.

Ongoing reviews at two student financial aid servicers disclosed concerns about
their Year 2000 readiness. These servicers administer Title IV programs for
hundreds of schools. Due to the time constraints of the Year 2000 issue and the
potential impacts of servicer failures, we immediately communicated our
preliminary concerns to the Department. We provided recommendations to the


                                         2
Department on how to mitigate the risks associated with potential Year 2000-
related failures at student financial aid servicers.

     –   Ongoing monitoring of the Year 2000 Project
OIG continues to monitor the Department’s progress in preparing for the Year
2000. OIG regularly attends meetings and advises the Year 2000 Steering
Committee established by the Acting Deputy Secretary. At the request of the
Department, OIG participated in contingency planning meetings and reviewed
documentation supporting the reported implementation of a sample of mission
important and mission supportive systems. In June 1999, OIG will report on our
review of the Department's Year 2000 compliance for the processing, delivery
and administration of Title IV programs as required by the Higher Education Act.

♦    GRANTS ADMINISTRATION AND PAYMENT SYSTEM (GAPS)

The GAPS system is a core component of the Department’s new Central
Automated Processing System. During this period, we worked with the
Department to resolve all 45 GAPS system security findings reported during the
previous semiannual period. Additionally, we conducted two reviews on the
GAPS reconciliation process. This process is an essential control which ensures
that expenditures and account balances are correct.

We found that although the Office of the Chief Financial/Chief Information
Officer (OCF/CIO) had closed out a backlog of hotline calls from recipients
concerning reconciliation problems, many of the recipients remained
unreconciled. If those records remain unreconciled, it is likely that errors will be
recorded in new grant accounts. In a follow-up review, we found that the
OCF/CIO made a genuine effort to respond to written requests for reconciliation
adjustments. However, we noted several weaknesses in the Department’s controls
over the reconciliation process.

♦    SYSTEM DEVELOPMENT

We completed two audits of the Department’s management of the system
development process.

     – "Audit of the Postsecondary Education Participants System (PEPS)
       Development" (ACN 11-70002)
The PEPS system is a mission-critical system designed to assist the Office of
Student Financial Assistance Programs in meeting its responsibility to manage
and monitor all organizations that participate in the delivery of federal student
financial assistance programs. We found that the system encountered delays and
suffered from inadequate attention to data integrity problems during its early
years. Despite these problems, users generally expressed the opinion that the
system will serve the Department well when fully implemented. We identified
three areas where the Department’s systems development processes could be
improved: 1) implementation of capital planning provisions of the Clinger-Cohen



                                         3
Act, 2) assuring the quality and completeness of data, and 3) strengthening
controls over information technology contracting.

     – “Direct Loan Origination and Consolidation Systems” (ACN 11-70010)
The objectives of our audit were to determine whether the Department adequately
defined its requirements for these systems and whether the Department adequately
tested requirements prior to system start-up. We found that the requirements were
not adequately defined or tested prior to system start-up. The body of our report
details findings specific to the development and implementation of these systems.
However, the recommendations presented address general control weaknesses,
and provide suggestions that can be used to improve the Department’s future
systems development and implementation processes overall to avoid the
difficulties and delays encountered here.

ELEMENTARY AND SECONDARY EDUCATION
OIG has been involved in efforts to improve the effectiveness of school districts'
use of federal education funds. This period saw the issuance of two products that
could have an impact on the reauthorization of the Elementary and Secondary
Education Act: 1) An OIG Perspective on the Reauthorization of the Elementary
and Secondary Education Act and 2) an audit, Safe and Drug Free Schools:
Increasing Accountability and Preserving Flexibility. OIG also participated in
Improving America’s Schools conferences held last fall, and provided input to
Congress concerning the proposed Education Flexibility Partnership Act of 1999.

♦    REAUTHORIZATION OF THE ELEMENTARY AND SECONDARY
     EDUCATION ACT

     – “An OIG Perspective on the Reauthorization of the Elementary and
       Secondary Education Act” (S14-80010)

In anticipation of the 1999 reauthorization of the Elementary and Secondary
Education Act (ESEA), OIG conducted audits and reviews, actively engaged in
the Cooperative Audit Resolution and Oversight Initiative, and participated in
Department work teams, Program Coordination Review teams and ESEA-related
conferences. Using these audits and reviews, as well as our experience with
related ESEA initiatives, we developed a paper to provide our perspective on the
ESEA reauthorization.

Based on our experience with ESEA programs, we concluded that the
reauthorized ESEA should be written in “plain language” to ensure the uniform
interpretation and implementation of the law and include only the essential
requirements needed to achieve desired program results. This paper provides a
set of three “common sense” tests for determining necessary and comprehensible
compliance requirements and how they might be formulated to incorporate the
requirements of the Government Performance and Results Act of 1993. We
further recommended minimum standards for state education agency monitoring
of ESEA programs, and suggested a stronger role for the Department of

                                        4
Education in the oversight of ESEA program integrity. The paper also provides a
compendium of pertinent audit results with recommendations for legislative
changes. This paper is designed to assist the Department and Congress in
determining needed revisions, additions and/or deletions to the ESEA.

     – "Safe and Drug Free Schools: Increasing Accountability and Preserving
       Flexibility" (ACN 03-80001)

Our audit report stated that state and local education agencies (SEAs and LEAs)
need more guidance and/or technical assistance to maximize the impact of their
programs under the Safe and Drug Free Schools and Communities Program. The
report summarizes our review at the Department’s program office, four states and
26 LEAs.

The Department's Safe and Drug Free Schools (SDFS) application process has
improved. However, in three of the four states reviewed, the performance
indicators developed by most LEAs were output-based, rather than outcome-
based. The three states said that ED needed to provide more technical assistance
on outcome-based performance indicators.

The Department has taken important steps to assist states in maximizing the
impact of their SDFS programs, issuing "Principles of Effectiveness" and holding
a national conference on the Principles in the summer of 1998. The Department
is also planning additional technical assistance.

     – Improving America's Schools conferences and presentations
OIG staff participated in a number of conferences and presentations throughout
the country on Improving America's Schools. The conferences (Denver,
Colorado; Portland, Oregon; and Nashville, Tennessee) focused on many different
issues, including Schoolwide programs, integration of funds to support
educational reform, and reauthorization of the ESEA. Also at these conferences,
OIG staff gave presentations concentrating on the integration of funds in
Schoolwide programs and led roundtable discussions on flexibility within the
ESEA.

♦    PROPOSED EDUCATION FLEXIBILITY PARTNERSHIP ACT OF 1999

In response to Congressional requests, OIG staff provided the Subcommittee on
Early Childhood, Youth, and Families with comments on the proposed Education
Flexibility Partnership Act of 1999 (Ed-Flex). Our comments included suggested
statutory language making the provisions on monitoring more detailed to provide
better guidance to the SEAs. We also recommended provisions designed to meet
the expectations and requirements of the Government Performance and Results
Act of 1993. The comments and statutory language provided to the
Subcommittee reflected the findings and recommendations included in our paper,
An OIG Perspective on the Reauthorization of the Elementary and Secondary
Education Act, issued during this reporting period and described above.



                                        5
STUDENT FINANCIAL ASSISTANCE
♦    STUDY OF COST ISSUES: FEDERAL FAMILY EDUCATION LOAN
     PROGRAM AND FEDERAL DIRECT LOAN PROGRAM (CN S13-70001)
OIG conducted a study of cost issues to assess their impact on the Federal Family
Education Loan Program and Federal Direct Loan Program for fiscal years 1996
and 1997. Our study drew a distinction between “subsidy” costs— which are
largely uncontrollable but constitute the majority of costs of the programs— and
“administrative” costs— which are lesser but more controllable. We concluded
that in any given year, either program’s total costs (subsidy and administrative)
might be greater given the impact of prevailing economic conditions on subsidy
costs. Second, we concluded that inefficiencies likely affect the Department’s
administration of the two programs.

♦    SYSTEMS CONTRACTING FOR OPERATION OF THE TITLE IV WIDE
     AREA NETWORK
We performed a review of the Department’s contract for operating the Title IV
Wide Area Network (TIVWAN). The TIVWAN links thousands of users across
the United States, its territories, and certain Department-designated foreign
countries, to the Higher Education Act's Title IV student financial aid programs
delivery systems. We issued a series of action memoranda to alert the
Department to issues identified during our review. We reported concerns about
informal task orders and modifications to the contract, noncompetitive awarding
of additional tasks that appear outside the contract’s original scope, outstanding
TIVWAN remittances to the Department, and changes resulting in overcharges
for key personnel.

FY 1998 FINANCIAL STATEMENT AUDIT
In Semiannual Report No. 37 (page 3), we reported that the financial statement
audit that is statutorily mandated to be completed no later than March 1, 1999 had
been delayed. The Chief Financial Officer reported that the Department’s
accounting books and records would not be ready for audit until February 1999.
We only recently received the Department’s trial balance and financial
statements, and now expect to complete the audit in October, rather than August
as previously reported.

GOVERNMENT PERFORMANCE AND RESULTS ACT
The Government Performance and Results Act (GPRA or the Results Act) is the
centerpiece of a statutory framework that Congress put in place to improve federal
management and provide a greater focus on results. GPRA requires that federal
agencies prepare a five-year strategic plan and annual performance plans
beginning with fiscal year 1999. The Results Act also requires that federal
agencies prepare performance reports. The first performance report on fiscal year
1999 is due in March 2000.



                                         6
♦    OIG ACTIVITIES TO ADVISE AND ASSIST THE DEPARTMENT

OIG has participated in an advisory capacity to the Department in its
implementation of the Results Act and will continue to do so. During this period,
OIG staff reviewed and provided comments on the Department’s data standards.
A draft of those data quality standards was included in the Department’s FY 2000
Annual Plan.

♦    OIG RESULTS ACT WORK
As previously reported, the Department’s Strategic Plan includes an OIG
recommendation that Department managers assert that the data used for their
program’s performance measurement are reliable or, if not reliable, detail plans
for improving the data or finding alternative sources. In An OIG Perspective on
the Reauthorization of the Elementary and Secondary Education Act, we
recommended that a similar assertion be incorporated into the reauthorized ESEA
to assure the validity and reliability of data from state and local levels. This data
assertion recommendation from the “Perspective Paper” also was incorporated
into the Oversight and Reporting Section of the proposed Education Flexibility
Partnership Act of 1999 (Ed-Flex).

During this semiannual period, OIG visited four SEAs to identify controls that
ensure the reliability of performance data submitted by SEAs to the Department
for the Title I and Vocational Education programs. OIG will also identify
limitations of, or weaknesses in, the performance data and the barriers or
obstacles to improving the quality of that data. During the next semiannual
period, OIG plans to perform work at additional SEAs and will begin work to
assess the Department’s controls over the data received from SEAs.

AUDIT RESOLUTION PRACTICES AND QUALITY INITIATIVES

♦    COOPERATIVE AUDIT RESOLUTION AND OVERSIGHT
     INITIATIVE (CAROI)
As reported in previous Semiannual Reports, we have been working with an
intradepartmental team on a wide-ranging project known as the Cooperative Audit
Resolution and Oversight Initiative (CAROI). CAROI is a collaborative method
in which states and the Department of Education work together to help solve
recurring problems identified in single audits and OIG audits. The goal of
CAROI is to improve education programs and student performance at state and
local levels through better use of audits, monitoring, and technical assistance.

This period, OIG staff participated in several CAROI initiatives:

     – Cooperative efforts with states
OIG continues to work with Departmental staff and the Commonwealth of Puerto
Rico to complete the cooperative resolution of an audit of time distribution. In
Washington State, OIG worked with the State Auditor’s Office on a pilot project
designed to provide an annual overall state-level audit. In Florida, OIG is

                                          7
working with a group of other ED staff members and Florida representatives to
resolve multiple audit findings affecting multiple Department program offices
from fiscal years 1993 through 1997. In Illinois, OIG is working to resolve an
audit finding concerning the adequacy of support for the allocation of
administrative costs to federal programs.

     –   Cooperative efforts with the Department
OIG continues to work with the Department to help it transition to a
comprehensive, cooperative audit resolution process. Toward this end, we are
working with other Department offices to document the procedures to be used in a
cooperative audit resolution process. The goal is to produce a model process for
use by the Department, other federal agencies, and states.

     –   CAROI web site
OIG worked with other Departmental staff to produce a state-of-the-art web site.
The web site provides information specific to CAROI as well as links to many
other sites that provide useful information including guidance for Schoolwide
programs and flexibility issues. The site is designed to respond to the needs of the
users providing a “frequently asked questions” link and the CAROI Guide (when
completed). The web site address is: www.ed.gov/inits/CAROI.

u    QUALITY INITIATIVES

We continued to focus on improving audit quality by performing quality control
reviews (QCRs) of the audit working papers prepared by independent public
accountants (IPAs) who audit ED programs. We summarized the results of the
student financial assistance QCRs performed in fiscal year 1998 that pertain to
audits of fiscal years 1996 and 1997. We expect to issue a final report to the
program office during the next reporting period. The results indicate that
approximately 46 percent of the audit working papers were deemed substandard
or significantly inadequate, despite some improvement over the prior year.

We will take appropriate action— which may include referrals to the State Boards
of Accountancy and to the American Institute of Certified Public Accountants—
against IPAs whose audits disclose recurring substandard performance or
significant inadequacies. In addition, practitioners who are referred may be
subject to suspension and debarment from federal programs and to civil action.




                                         8
        GOAL 2: PROGRAMS AND OPERATIONS INTEGRITY
           OIG’s work discloses significant fraud, waste and abuse;
               results in enforcement and corrective actions;
                          and promotes deterrence.

♦    FAILURE TO COMPLY WITH THE TITLE IV REVENUE PERCENT RULE
 The 85 Percent Rule required proprietary institutions of higher education
participating in the Department’s student financial assistance programs to obtain
no more than 85 percent of their revenues from Title IV sources. The
reauthorization of the Higher Education Act, in October 1998, changed the
percentage from 85 to 90 percent. OIG work this period disclosed several
instances in which schools did not adhere to the Title IV Percent Rule in effect for
the period covered by the audits, reviews and investigations, resulting in the
disbursement of federal SFA funds to which the schools were not entitled.

     – "Treatment of Institutional Loans, Institutional Matching Funds and Perkins
        Loan Program in the 85 Percent Rule Calculation" (SFA 99-07)
We alerted the Office of Student Financial Assistance Programs that ED needs to
emphasize to proprietary institutions the amounts that can be included when
calculating their percentage of revenue from Title IV programs under the 85 (90)
Percent Rule. We also said that the Department needs to provide guidance on the
amounts that institutions should include in the 85 (90) Percent Rule calculation
for the Perkins Loan Program.

As part of our assessment of the Department's implementation of the 85 Percent
Rule, we conducted 20 audits of proprietary institutions to determine whether the
institutions had met this institutional eligibility requirement. In 11 of the 20
audits, we found that institutions were including amounts in their calculation that
did not represent revenue, i.e., amounts accounted for on a cash basis representing
actual cash in-flows.

     – "Academy Pacific Business and Travel College Was Not in Compliance
        With the 85 Percent Rule" (ACN 09-80023)
Our review found that Academy Pacific Business and Travel College, Los
Angeles, California, received only 12.41 percent of its revenues from non-Title IV
sources during the fiscal year ended December 31, 1995. As a result, the
institution was ineligible to participate in the Title IV programs as of January 1,
1996. Academy Pacific also failed to meet the 85 Percent Rule in its fiscal years
ended December 31, 1996 and 1997. As of May 31, 1998, Academy Pacific had
received $1,935,364 in grants and disbursed $4,714,324 in loans after the
institution became ineligible.

OIG investigations have also disclosed instances of noncompliance with the 85
Percent Rule, as in the following case, which resulted in an indictment this
period.


                                         9
     – College officials and three corporations indicted for falsely reporting
       compliance with the 85 Percent Rule
Jose Sosa Funes and Katherine Kuhn, the president and vice president,
respectively, of Emory College of Puerto Rico, were arrested pursuant to an
indictment issued by a federal grand jury in San Juan, Puerto Rico. Also indicted
were three corporations: Emory College of Puerto Rico, Emco Investment Inc.
and Tulip, Inc. Investigation developed evidence that Sosa and Kuhn requested
$3,150,309 and fraudulently obtained $2,485,728 in Pell Grant and Federal
Family Education Loan Program funds after falsely reporting to the Department
that Emory College of Puerto Rico had complied with the 85 Percent Rule.

♦    REAUTHORIZATION OF THE HIGHER EDUCATION ACT (HEA)

     – OIG proposals included in HEA reauthorization
The OIG submitted 17 proposals to Congress for consideration in the 1998
reauthorization of the Higher Education Act, which passed in October. Four of
our proposals were fully adopted by Congress and five other proposals were
partially adopted.

We are nevertheless disappointed that several critical proposals to ensure integrity
and provide for improvement in the SFA programs are not reflected in the
amended HEA. We remain convinced that many of these recommendations—
particularly our proposal to legislate performance standards for vocational
schools— should be considered for future amendments to the HEA to enable
program performance measurements for the Government Performance and
Results Act.

♦    MANIPULATION OF THE COHORT DEFAULT RATE

By statute and regulation, the Department utilizes a formula for calculating the
Federal Family Education Loan Program (FFELP) cohort default rate of
participating schools. Prior to the Higher Education Amendments of 1998,
schools having an annual cohort default rate exceeding 25 percent for three
consecutive years were prohibited from continued participation in the FFELP.
To date, the Department has removed the FFELP eligibility of some 1,065 schools
based upon excessive cohort default rates. Under a provision of the Higher
Education Amendments of 1998, schools with cohort default rates exceeding 25
percent for three consecutive years are now prohibited from participation in all
Title IV programs.

The OIG has uncovered evidence that certain schools may have engaged in
practices designed to fraudulently manipulate their cohort default rate
calculations. Our investigations have revealed that schools endeavoring to
manipulate cohort default rates have submitted fraudulent borrower deferments
and forbearances and made token loan payments to loan servicing agencies. In
this reporting period, the former owner of an Elizabeth, New Jersey beauty school
pled guilty to fraudulently manipulating his school's cohort default rate. His
sister, also an owner of the school, and three former employees also have been

                                          10
charged in this case. Investigation disclosed that the school fraudulently received
in excess of $846,000 in Title IV funds as a result of this activity.

During this reporting period, we presented materials and conducted a briefing on
the fraudulent manipulation of cohort default rates to staff of the House
Subcommittee on Human Resources, Committee on Government Reform and
Oversight.

♦    STUDENT FINANCIAL ASSISTANCE (SFA) MARKETING COMPANY/
     CONSULTANT FRAUD
Our investigative efforts in this area expanded in recent months with the opening
of eight additional cases involving allegations of fraud on the part of individual
consultants and/or SFA marketing companies. The consultants allegedly assist
students and parents in using false income and other financial data to obtain
student financial aid to which they would not be entitled. This assistance may
include, but is not limited to, preparing false income-tax returns to be used for
verification purposes. Typically, these individuals charge their clients a fee of
between $275 and $350 or a percentage of the total financial aid award received.

During this reporting period, a Michigan consultant was sentenced and a New
York consultant admitted guilt for such activity. Both investigations involved the
preparation of fraudulent Free Applications for Federal Student Aid, as well as
fraudulent tax returns and other supporting documentation used by the
Department and colleges in awarding financial aid.

Based in part upon the audit and investigative work of the OIG, the Higher
Education Amendments of 1998 passed during this reporting period included a
provision to allow for the matching of applicant income data with the Internal
Revenue Service (IRS). However, a match has not yet been implemented. Based
upon our work, OIG believes that problems surrounding financial aid
consultants and SFA marketing companies may be more extensive than has
actually been documented. We strongly urge that the provision be implemented
as soon as possible.

♦    LENDER AND GUARANTY AGENCY FRAUD

The OIG continues to pursue cases of due diligence fraud committed by financial
institutions against the FFELP. Over the past several years, OIG has investigated
several cases of due diligence fraud committed by loan servicing companies.
These investigations to date have led to ordered restitution and fines in excess of
$61 million.

During this reporting period, two corporate entities entered into settlement
agreements with the United States in civil cases based on OIG investigations.
Whitney National Bank, New Orleans, Louisiana, agreed to pay a civil settlement
that alleged the falsification of due diligence requirements prior to the submission
of loans to three guaranty agencies for default claims. In accordance with the
settlement, the bank paid $6.1 million in claims and damages.

                                         11
Additionally, investigative work performed by OIG during this period in the area
of due diligence fraud also led to the filing of an April 8, 1999, civil complaint in
U.S. District Court in Chicago, Illinois, against Corus Bankshares, Inc. and Corus
Bank, Inc. for violations of the False Claims Act. The complaint alleged that the
bank, as successor in interest to River Forest Bancorp, Inc., submitted thousands
of false claims, resulting in improper reinsurance payouts totaling more than
$11.8 million. These claims for defaulted student loans allegedly misrepresented
the bank’s loan servicing due diligence activity. Further details regarding this
action will appear in our next Semiannual Report.

In another matter involving fraud by financial institutions against the FFELP, five
former board members of the Education Assistance Corporation (EAC), a
designated guaranty agency in South Dakota, agreed to pay $250,000 as part of a
civil settlement which alleged that they had defrauded the Department by entering
into agreements with two for-profit corporations, Tel Serv and Aberdeen Real
Estate. The scheme involved submission of false claims for payment from the
EAC reserve fund to the two corporations.

♦    POSTSECONDARY SCHOOL FRAUD
During the reporting period, OIG devoted substantial resources to investigations
of postsecondary school owners, officials and employees. As outlined in Abstract
2, Significant Prosecutive Actions Resulting from OIG Investigations, 16
vocational school owners and/or employees and six employees of other
postsecondary schools were the subjects of prosecutive activity in connection with
the administration of the student financial aid programs.




                                         12
         P.L. 95-452 REPORTING REQUIREMENTS


SECTIONS 5(A)(1) AND 5(A)(2) SIGNIFICANT PROBLEMS, ABUSES AND DEFICIENCIES
4 Significant Audits and Audit-related Activities ........................................ 1, 14
4 Significant Prosecutive Actions Resulting from OIG Investigations ......... 9, 23

SECTION 5(A)(3) RECOMMENDATIONS DESCRIBED IN PREVIOUS SEMIANNUAL
REPORTS ON WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED ................ 35

SECTION 5(A)(4) MATTERS REFERRED TO PROSECUTIVE AUTHORITIES ........... 23, 53

SECTIONS 5(A)(5) AND 6(B)(2) SUMMARY OF INSTANCES WHERE INFORMATION
WAS REFUSED OR NOT PROVIDED*

SECTION 5(A)(6) LISTING OF AUDIT REPORTS
      ED/OIG Reports on Education Department Programs and Activities.......... 37

SECTION 5(A)(7) SUMMARY OF SIGNIFICANT AUDITS
      Significant Audits and Audit-related Activities ...................................... 1, 14

SECTION 5(A)(8) AUDIT REPORTS CONTAINING QUESTIONED COSTS
      Inspector General Issued Reports with Questioned Costs ........................... 40

SECTION 5(A)(9) AUDIT REPORTS CONTAINING RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE
      Inspector General Issued Reports with Recommendations for
      Better Use of Funds ................................................................................... 41

SECTION 5(A)(10) SUMMARY OF UNRESOLVED AUDIT REPORTS ISSUED
PRIOR TO THE BEGINNING OF THE REPORTING PERIOD
      Unresolved Reports Issued Prior to October 1, 1998 .................................. 42

SECTION 5(A)(11) SIGNIFICANT REVISED MANAGEMENT DECISIONS*

SECTION 5(A)(12) SIGNIFICANT MANAGEMENT DECISIONS WITH WHICH OIG
DISAGREED*




*We have no instances to report.


                                                     13
                                          Abstract 1

                     SIGNIFICANT AUDITS
                AND AUDIT-RELATED ACTIVITIES
                        October 1, 1998 – March 31, 1999



                        — Information Technology —
                          FUNDING THE YEAR 2000 CONVERSION,
                       A REPORT ON ED'S YEAR 2000 COST ESTIMATES
                                ACN 11–80011 December 18, 1998

Our report on the Department’s (ED’s) cost estimate for addressing Year 2000 problems included
three observations. First, although ED implemented a process for developing Year 2000 project
cost estimates, we could not determine that ED’s estimate reasonably reflected the actual costs to
be incurred for the Year 2000. Second, ED did not receive significant funding earmarked for the
Year 2000 renovation and funded the costs with existing appropriations. Third, we were unable to
evaluate the effect of the Year 2000 project conversion on other Department information
operations, as ED has not implemented a capital planning and investment control process. We
provided recommendations to improve the cost estimation process and to coordinate a funding
strategy to ensure that future costs are sufficiently funded.


                   REVIEW OF YEAR 2000 RELATED RISK TO PROGRAMS
              ADMINISTERED UNDER TITLE IV OF THE HIGHER EDUCATION ACT
                                   S11–80014 January 15, 1999

Our review assessed the risk of the Department’s systems and hardware not being able to process
student financial assistance (SFA) data in the Year 2000. Our assessment addressed the state of
readiness of ED’s 13 mission-critical systems involved in the delivery of SFA as reported by ED’s
Independent Verification and Validation (IV and V) contractors.

We found that, based on the progress made in recent months, the risk of ED’s systems and
hardware not being ready for Year 2000 had been significantly diminished. At the time of our
review, 10 of the 13 mission-critical systems instrumental in the delivery of SFA had been
reported by ED as renovated, validated and implemented. We concurred that all remaining
systems should be implemented by March 31, 1999.

We noted that ED had not included end-to-end testing and contingency plans, although both were
in process and on schedule to meet OMB required dates. These two areas of risk, along with
external trading partners and planned system enhancements, will warrant continued monitoring.




                                               14
             AUDIT OF THE POSTSECONDARY EDUCATION PARTICIPANTS SYSTEM
                                [PEPS] DEVELOPMENT
                                 ACN 11–70002 February 12, 1999

The objective of our audit was to assess the Department's management of the PEPS system
development process. Generally, we found that PEPS featured many quality project-development
attributes, but encountered delays due to weaknesses in the Department's capital planning and
investment control process, and suffered from inadequate attention to data integrity problems
during its early years.

Despite the delays and the data concerns, system users generally expressed the opinion that the
PEPS system will serve the Department well when it is fully implemented. We identified the
following three areas where ED’s processes could be improved.

1) ED needs to accelerate its implementation of the capital planning provisions of the Clinger-
   Cohen Act. This would, in our opinion, help ED to avoid the recurrence of many of the
   problems that led to delays with PEPS development, and would strengthen future ED
   information technology (IT) development projects.

2) ED should take steps to assure the quality and completeness of PEPS data. Although the
   Department has initiated several efforts to improve the quality of the PEPS data during the
   past several years, to date a thorough, independent data reliability assessment has not been
   performed. For the Department to obtain the full benefit from the PEPS system, it should take
   steps to assure the system’s user community of the quality and reliability of the PEPS data.

3) Controls over IT contracting need to be strengthened to address system transition. The PEPS
   development contract with the original contractor did not include a provision for the transfer
   of critical system documentation and source code to the subsequent contractor. This oversight
   resulted in a significant delay in PEPS development during 1995 and 1996, and additional
   cost to the development effort. ED was eventually able to provide the subsequent contractor
   with the necessary documentation to resume project development, but lacks specific guidance
   to prevent recurrence of transition problems with future development efforts.


REVIEW OF THE DEPARTMENT’S REQUIREMENTS DEFINITION & TESTING PROCESSES FOR THE
               LOAN ORIGINATION AND LOAN CONSOLIDATION SYSTEMS
                                  ACN 11-70010 March 30, 1999

The objectives of our audit were to determine whether the Department adequately defined its
system requirements for the Loan Origination and Loan Consolidation Systems (LOS/LCS)
contract, and whether the Department adequately tested requirements prior to system start-up. Our
review identified the following weaknesses:

1) System requirements were not adequately defined.

2) System specifications and documentation provided to EDS were incomplete and outdated.

3) Test scenarios and test cases did not ensure that the systems met the required functionality.

4) Overall documentation supporting the system testing was poorly maintained.

5) System-generated management information reports were not reviewed or tested.

6) System interfaces were not adequately tested prior to system implementation.

The body of our report detailed findings specific to the LOS/LCS development and
implementation. The recommendations presented, however, addressed general control weaknesses
noted and provided recommendations ED can use to improve the Department’s future system


                                                15
development and implementation processes overall, to avoid the difficulties and delays
encountered with LOS/LCS.


                REVIEW OF THE ILLINOIS STUDENT ASSISTANCE COMMISSION'S
                              YEAR 2000 READINESS PLANS
                                  ACN 05-90019 March 24, 1999

Our review of the Illinois Student Assistance Commission's (ISAC) Year 2000 readiness plans
indicated that the entity had sufficient controls in place to reasonably ensure it was making
satisfactory progress in its Year 2000 efforts. We believed that ISAC’s Year 2000 efforts were
satisfactory, because the entity exhibited acceptable performance in all key phases of the Year
2000 project management process, with the following exceptions:

1) ISAC was not scheduled to complete its Year 2000 plans until June 1, 1999, which is after the
   March 1999 date recommended by the Department.

2) ISAC was still in the process of developing some aspects of its contingency planning.

In our opinion, these exceptions were not yet significant. Nonetheless, we recommended that the
Chief Operating Officer, Office of Student Financial Assistance Programs, monitor ISAC’s
progress relative to these areas.


            REVIEW OF THE FLORIDA OFFICE OF STUDENT FINANCIAL ASSISTANCE
                             YEAR 2000 READINESS PLANS
                                ACN 04-80029 November 24, 1998

Our review of the Florida Office of Student Financial Assistance’s (FOSFA) Year 2000 readiness
indicated that the entity had a plan in place to address its Year 2000 efforts. FOSFA had
contracted with EDS, the servicer of the Florida Student Loan System, to make necessary Year
2000 renovations to their loan management system. Although FOSFA had developed, through its
contractor, plans to address the key phases of the Year 2000 readiness, they were three months late
starting their Year 2000 process. At the time of our site visit, EDS had completed the awareness
phase and was approximately 67 percent complete with the assessment phase. In addition, we did
not believe that FOSFA’s contingency plan related to potential Year 2000 failure was adequate.
Finally, FOSFA was in the process of awarding a new servicer contract, which was scheduled to
start at the same time their Year 2000 efforts were to be completed by EDS. As a result of these
items, we categorized FOSFA’s Year 2000 efforts as cautionary.


    REVIEW OF THE YEAR 2000 READINESS PLANS AT FINANCIAL AID MANAGEMENT FOR
                   EDUCATION, INC. FORT LAUDERDALE, FLORIDA
                                  ACN 04-90010 March 31, 1999

The review of Financial Aid Management for Education’s (FAME) Year 2000 readiness plans
indicated that the entity had instituted controls to reasonably ensure it is making satisfactory
progress in its Year 2000 efforts. Although FAME was making progress in its Year 2000 efforts,
we categorized FAME’s Year 2000 plans as cautionary because of concerns in three of the
planning stages.

At the time of the site visit, FAME officials indicated that they were approximately two-thirds
complete with their Year 2000 changes and modifications to their computer systems. The
anticipated completion to their student financial aid programs was the end of February 1999, with
full Year 2000 compliance the second quarter of 1999.




                                                16
FAME has completed its assessment, awareness, and renovation stages as related to its student
financial aid programs; however, we had several concerns with its planning process in the
renovation, validation and implementation stages. These concerns were:

1) FAME had not performed a complete inventory of its clients’hardware to ascertain year 2000
   compliance;

2) FAME had not performed a complete testing of its system in a Year 2000 environment; and

3) FAME had not finalized its Year 2000 contingency plans.


     REVIEW OF CALIFORNIA STUDENT AID COMMISSION’S YEAR 2000 READINESS PLANS
                                 ACN 09–80032 November 13, 1998

Our review of the California Student Aid Commission’s (CSAC) Year 2000 readiness plan
indicated that the entity had sufficient controls in place to reasonably ensure satisfactory progress
in its Year 2000 efforts. We conducted our work at CSAC as part of a larger OIG project to
evaluate Year 2000 readiness at a sample of guaranty agencies.

CSAC founded EDFUND, a non-profit corporation, in January 1997 as its auxiliary organization
to assist CSAC in operating and administering the federal student loan program. We examined
documentation supporting EDFUND’s reported progress for each phase of the Year 2000 project.
We learned that EDFUND had completed the awareness and assessment phases for its systems.
While it had not established an overall organizational Year 2000 contingency plan, EDFUND had
demonstrated a recognition of the need for contingency planning that goes beyond the traditional
emergency planning. EDFUND asserted it would complete contingency planning in the first
quarter of 1999.


             REVIEW OF DETROIT PUBLIC SCHOOLS’YEAR 2000 READINESS PLANS
                                  ACN 05–90021 February 26, 1999

Our review of the Detroit Public Schools’ (DPS) Year 2000 readiness plans indicated that the
entity appeared to have sufficient controls in place to reasonably ensure that it was making
satisfactory progress in its Year 2000 efforts. We believed that DPS’ Year 2000 efforts were
satisfactory because the entity exhibited acceptable performance in all key phases of the Year
2000 project management process. However, DPS had not established an overall organizational
contingency plan.

DPS recognized that it must have a contingency plan in the event of a Year 2000-induced system
failure. DPS advised us that it planned to hire a vendor soon to complete a contingency plan that
would include a disaster recovery plan and a business resumption plan. Without a contingency
plan, DPS could experience severe adverse effects in the event of a system failure related to a Year
2000 problem.



             — Elementary and Secondary Education —
                    AN OIG PERSPECTIVE ON THE REAUTHORIZATION OF THE
                       ELEMENTARY AND SECONDARY EDUCATION ACT
                                     S1480010 February 24, 1999

The Department and Congress have an opportunity to improve the effectiveness and efficiency of
the Elementary and Secondary Education Act of 1965 (ESEA), as amended by the Improving
America’s Schools Act of 1994, and align the ESEA with the Government Performance and

                                                 17
Results Act of 1993 (Results Act). In the 1994 reauthorization, Congress legislated greater
flexibility in the administration of ESEA programs in return for increased accountability for
results. The Department and Congress should build on this effort and continue improvements in
the ESEA programs.

To assist in this important task, we recommended the following:

1)    The reauthorized ESEA should be written in plain language that is clear enough to permit
      implementation of the law at the state and local levels without the need for extensive
      technical assistance.

2)    The reauthorized ESEA needs to require not only the compilation of data for use in
      determining student achievement and program effectiveness, but also should take into
      consideration the need to assure the validity and reliability of data provided for that purpose
      by the state and local entities.

3)    To more effectively produce the data required by the Results Act, the Department should
      use an OIG-developed test to help determine whether ESEA data collections fulfill the need
      for valid and reliable data.

4)    The Department should establish minimum standards for SEAs in monitoring the LEA
      administration of ESEA programs.

5)    The Department should play a more active role in ensuring ESEA program integrity by
      developing an oversight system that: a) integrates program reviews, audits, technical
      assistance, grantee reporting and evaluation studies; b) emphasizes follow-up of corrective
      actions; c) takes into account results of state analyses of LEA single audit findings; and d)
      otherwise ensures compliance with program requirements.

The final section of this paper is a summary of major audit results and reviews regarding charter
school accountability, the flow of Title I program dollars to the schools, the use of Title XIV
flexibility provisions and other related matters.


                             SAFE AND DRUG FREE SCHOOLS:
                 INCREASING ACCOUNTABILITY AND PRESERVING FLEXIBILITY
                                ACN 03–80001      December 21, 1998

Our audit found that state and local educational agencies need more guidance and/or technical
assistance to maximize the impact of their programs under the Safe and Drug Free Schools and
Communities Act. The report summarizes our review at the federal program office, four states
and 26 local educational agencies (LEAs).

Our review found that the Department's Safe and Drug Free Schools (SDFS) application process
had improved from the interim program year (1995/96) to the year under review (1996/97). These
improvements resulted in stronger management controls during the application review process and
additional technical assistance to states. As a result, states’ applications approved by ED included
outcome-based performance indicators for the SDFS program. In three of the four states
reviewed, however, the performance indicators developed by most LEAs were output-based. The
three states said that ED needed to provide more technical assistance on outcome-based
performance indicators.

The Department has developed the “principles of effectiveness,” which became effective July 1,
1998. These principles provide a framework to help recipients of SDFS state and local grant funds
to design, implement and evaluate programs in order to use the funds as efficiently and effectively
as possible. In June 1998, the Department held a national conference on the principles and is
planning additional technical assistance.



                                                 18
         AUDIT OF UNEMPLOYMENT AND WORKERS COMPENSATION CHARGES BY THE
                     DETROIT PUBLIC SCHOOLS, DETROIT, MICHIGAN
                                 ACN 05–90005     February 2, 1999

Our report found that the Detroit Public Schools (DPS) did not annually calculate the
unemployment and workers compensation portion of its fringe benefit rate because it did not have
a formal policy requiring the annual calculation. If DPS does not calculate a new rate annually, it
could overcharge the federal programs for unemployment and workers compensation costs. We
believe sound business practices dictate that reasonable costs should be estimated using historical
experience and reasonable assumptions. When historical data show large fluctuations from year to
year, a sound business practice would dictate annual calculations of the fringe benefit rates.

DPS last calculated new unemployment and workers compensation fringe benefit rates using
1994-1995 award year data. An analysis of the unemployment costs disclosed large fluctuating
costs ranging from a 183 percent increase in 1995-96 and a 9.89 percent increase in 1996-97 to a
58 percent decrease in 1997-98. In addition, an analysis of the workers compensation costs for
1995-96, 1996-97 and 1997-98 disclosed that actual costs were 13 to 16 percent higher than the
1994-95 costs that were used to calculate the rate. As a result, DPS undercharged the federal
programs for unemployment and workers compensation costs during the three-year period.
During our on-site field work, DPS was recalculating its unemployment and workers
compensation rates using 1997-98 costs. If it does not calculate new rates, DPS could overcharge
the federal programs.

DPS agreed with the finding and acknowledged that the calculation of fringe benefits had not been
performed consistently during the past four years. DPS indicated that it had developed both a
procedure for annually calculating the fringe benefit rate and a policy describing the methodology
used for the calculation.


STATE OF MISSOURI SUSTAINABILITY OF THE SCHOOL-TO-WORK OPPORTUNITIES PROGRAM
                                ACN 07-80004     November 30, 1998

The audit objective was to determine whether Missouri had institutionalized elements that are
indicative of a sustainable School-to-Work (STW) system. Missouri had taken measures that
would contribute to system sustainability, such as its Comprehensive Guidance Program and the
Outstanding Schools Act of 1993, which supports educational reform and workforce development
issues. However, we also found areas in which actions could be taken to increase the likelihood
that Missouri’s STW system will be sustained after federal funding ceases.

We recommended that the National School-To-Work Office work with Missouri STW officials to
help them implement the recommendations to improve sustainability. Although the Missouri
Department of Elementary and Secondary Education did not fully concur with the findings, they
generally concurred with our recommendations.




                                                19
                          Student Financial Assistance

                             STUDY OF COST ISSUES:
   FEDERAL FAMILY EDUCATION LOAN PROGRAM AND FEDERAL DIRECT LOAN PROGRAM
                                  CN S13-70001    March 18, 1999

OIG conducted a study of cost issues to assess their impact on the Federal Family Education Loan
Program and Federal Direct Loan Program (FDLP) for fiscal years 1996 and 1997. Our study
drew a distinction between “subsidy” costs— which are largely uncontrollable but constitute the
majority of the costs of the programs— and “administrative” costs— which are lesser but more
controllable. We concluded that in any given year, either program’s total costs (subsidy and
administrative) might be greater given the impact of prevailing economic conditions on subsidy
costs. Second, we concluded that inefficiencies likely affect the Department’s administration of
the two programs.

To approximate the effect of these inefficiencies, we compared our estimate of the Department’s
cost to manage the FDLP— $17 per loan— to the average cost which we estimated (based on U.S.
Treasury research) that large private lenders would have incurred to manage the FDLP program—
$13 per loan.

To improve its administration of the loan programs, we suggested that the Department:

1) institute an activity-based costing system;

2) track employees' time to the program and the activity they work on;

3) develop models to predict borrowers' behavior, loan volume projections, and cost effects of
   management decisions; and

4) consider and take appropriate actions to address possible reasons for cost efficiencies.


              ACADEMY PACIFIC BUSINESS & TRAVEL COLLEGE ELIGIBILITY TO
                         PARTICIPATE IN TITLE IV PROGRAMS
                                ACN 09-80023     December 21, 1998

The objective of our audit was to determine whether Academy Pacific Business & Travel College
(Academy Pacific), Los Angeles, California, derived at least 15 percent of its revenues from non-
Title IV sources and properly reported its 85 Percent Rule percentage in its financial statements
and, if applicable, to ED. Our review identified the following weaknesses in its calculation of the
85 Percent Rule.

Academy Pacific received only 12.41 percent of its revenues from non-Title IV sources during the
fiscal year ended December 31, 1995. As a result, the institution was ineligible to participate in
the Title IV programs as of January 1, 1996. Academy Pacific also failed to meet the 85 Percent
Rule in its fiscal years ended December 31, 1996 and 1997.

In the notes to its financial statements, Academy Pacific reported to ED that the institution met
the 85 Percent Rule. However, we found that Academy Pacific improperly included amounts for
institutional scholarships, institutional matching contributions and institutional loans when
calculating its percentages. These amounts did not represent non-Title IV cash revenue received
by the institution. We also concluded that the validity of the institutional scholarships was
questionable.

We recommended that the Chief Operating Officer, Office of Student Financial Assistance
Programs take emergency action to terminate participation of Academy Pacific in the Title IV
programs. The Chief Operating Officer should also require that Academy Pacific return federal


                                                 20
grants received and ensure that the Department is made whole for federally guaranteed and federal
direct loans disbursed since January 1, 1996. As of May 31, 1998, Academy Pacific had received
$1,935,364 in grants and disbursed $4,714,324 in loans after the institution became ineligible.
Academy Pacific did not agree with our findings and recommendations.


     REVIEW OF THE EFFECTIVENESS OF PROVISIONAL CERTIFICATION ADMINISTERED BY
                        THE U.S. DEPARTMENT OF EDUCATION

                                  ACN 07-70008     January 15, 1999

Our review of a judgmental sample of institutional files disclosed that considering the available
information, the Institutional Participation and Oversight Service (IPOS) decision to provisionally
certify the schools was appropriate. However, because the Department has not revoked the
eligibility of any provisionally certified schools to participate in the student financial assistance
programs, we were unable to determine the overall effectiveness of provisional certification as a
tool to manage those at-risk schools that may fail to take corrective action or whose compliance
with federal regulations deteriorated.

We believe that the Department could take other action to improve its use of provisional
certification, and to ascertain whether provisional certification is an effective tool to manage
certain at-risk schools. We recommended that the Department:

1) extend the period of provisional certification for new schools until it receives the financial and
   compliance audits covering the schools’ first full award year; and

2) avail itself of the rules related to revoking provisional certification for schools when the
   opportunity presents itself.

The Department concurred with our recommendation that it should use the rules set out in the
provisional Program Participation Agreement related to revoking provisional certification for
schools when the opportunity presents itself. However, it did not concur with our
recommendation to extend the period of provisional certification for new schools until it receives
the financial and compliance audits covering the schools’ first full award year.


 ANTONELLI COLLEGE'S ADMINISTRATION OF STUDENT FINANCIAL ASSISTANCE PROGRAMS
                                  ACN 05-80008     February 16, 1999

Our audit found that Antonelli College did not adequately administer the Title IV, Higher
Education Act (HEA) student financial assistance (SFA) programs and account for SFA
transactions because it had not established strong management controls and an adequate
accounting system. As a result, SFA funds were at risk.

We recommended that the Office of Student Financial Assistance Programs:

1) place Antonelli on reimbursement, impose significant fines, and impose any other Title 34,
   Code of Federal Regulations [CFR], Part 668, Subpart G action it deems appropriate;

2) instruct Antonelli to return $6,653 of SFA funds to ED and disburse $442 of credit balances to
   students;

3) instruct Antonelli to establish adequate checks and balances in its management control
   system; and

4) instruct Antonelli to:

    a)     establish and implement controls to ensure that all SFA transactions are accurately
           recorded;


                                                 21
    b)    reconcile its federal Pell Grant and federal Supplemental Educational Opportunity
          Grant program funds for the 1996-1997 award year; and

    c)    make refunds by writing checks to the federal account.

Antonelli disagreed that it did not adequately administer the Title IV HEA programs and account
for SFA transactions.


             INSPECTION OF CTI’S FEDERAL STUDENT FINANCIAL AID PROGRAMS
                                  N04-70011 December 30, 1998

Our primary inspection objective was to determine if Career Training Institute (CTI) administered
its federal student financial aid (SFA) programs in accordance with laws, regulations and
applicable program requirements. Our inspection revealed that CTI and its programs were eligible
to participate. However, we determined that CTI did not always: 1) properly determine student
eligibility, 2) appropriately disburse SFA funds, and 3) properly calculate and pay refunds for
students who withdrew. We also determined that there were other weaknesses in the school’s
capability to administer the SFA programs. From the sample of student files reviewed, we
identified $67,670 in liabilities owed either to the Department or to lenders and $306 owed to
students for aid received during award years 1996 and 1997. During this period, the school
received a total of $2,824,258 in Title IV funds. Based on the liabilities identified from each of
our Determinations (findings), we estimate that the liabilities owed by CTI may be $513,568, or as
much as $932,054 .

In response to Determinations 1 and 3, CTI advised us that they have instituted new operating
procedures, hired additional financial aid staff and contracted with a new SFA servicer. We
believe these steps will help improve CTI’s administration of the SFA programs. However, we
made some additional recommendations, which include that CTI determine and refund any
additional liabilities owed.


                   A REVIEW OF THE FEDERAL PERKINS LOAN PROGRAM AT
                     CLARK ATLANTA UNIVERSITY, ATLANTA, GEORGIA
                                ACN 04-80006    December 4, 1998

We performed a limited review of the Perkins Loan Program at Clark Atlanta University. The
objective of our review was to determine whether Clark Atlanta was administering the Perkins
Loan revolving fund in accordance with applicable federal laws and regulations. Our review
found that:

1) improvements are needed in the overall management of the Perkins Loan fund by Clark
   Atlanta; and

2) student file maintenance and Perkins Loan award procedure should be improved.

Clark Atlanta University concurred with our findings and recommendations.




                                               22
                                           Abstract 2

          SIGNIFICANT PROSECUTIVE ACTIONS
         RESULTING FROM OIG INVESTIGATIONS
                        October 1, 1998 – March 31, 1999



           — School Owners, Officials and Employees —

                               JACOB ELBAUM, board of directors
                                KALMEN STERN, administrator
                               DAVID GOLDSTEIN, administrator
                                 BENJAMIN BERGER, mentor
                                  Toldos Yakov Yosef Seminary
                       Rockland County, New York and Brooklyn, New York

After an 11-week trial in White Plains, New York, a federal jury convicted Kalmen Stern, Jacob
Elbaum, David Goldstein and Benjamin Berger of Brooklyn and New Square, New York on
charges of conspiracy, wire fraud and mail fraud in connection with the theft of tens of millions of
dollars of federal program funds, including millions of Pell Grant dollars. The four convicted
men: 1) created entities through which federal and state funds were obtained, 2) submitted
fraudulent documentation in order to establish falsely the eligibility of New Square residents and
others to participate in federal and state educational programs, 3) used the funds obtained from
these programs for impermissible purposes, and 4) concealed their fraud by using false names and
nominee bank accounts.

Pell Grants were disbursed in the names of thousands of New Square residents and others in
postsecondary educational programs. Most of the students were listed as being enrolled in an
independent study program that did not require them to attend classes but instead permitted them
to study independently under the guidance of mentors. Under this structure, the mentors
supposedly met with the students periodically to measure their progress and administer
examinations. Many of the students were actually ineligible to receive federal funds because they
were not seeking a certificate or degree or because they were still enrolled in high school. Also,
many did not meet with mentors, review study materials, take examinations or otherwise
participate in a program of study. At trial, students testified that they enrolled because they were
promised payments of several hundred dollars per year by recruiters. Some students testified that
they had not been enrolled as claimed and that they were unaware that Pell funds had been
disbursed on their behalf. Pell Grant records disclosed that many of the students enrolled in as
many as eight different educational institutions, including Rockland Community College and
Toldos Yakov Yosef Seminary (TYY) during the late 1980s and early 1990s. Some students
obtained Pell Grants for ten years or more. During the period in question, TYY alone received
$11 million in Pell Grants on behalf of its purported students. Each of the convicted defendants
was allegedly a member of TYY's administration, faculty or staff.

Two additional men, including the leader of the Village of New Square, Chaim Berger, fled the
country prior to being indicted in 1997. Chaim Berger was arrested in Israel within weeks of the
conclusion of the trial in New York. At a bail hearing in Israel, Berger was remanded to house
arrest secured by way of a $3.5 million bond. (Semiannual Report No. 35, page s 21 and 22)




                                                 23
          JOSE SOSA FUNES and KATHERINE KUHN, president and vice president
             Emory College of Puerto Rico, Emco Investment Inc. and Tulip, Inc.
                                      San Juan, Puerto Rico

A San Juan, Puerto Rico, federal grand jury indicted Jose Sosa Funes and his wife, Katherine
Kuhn, the president and vice president, respectively, of Emory College of Puerto Rico on charges
of making false statements, wire fraud, mail fraud, student financial aid fraud, and money
laundering. Also indicted were three corporations, Emory College of Puerto Rico, Emco
Investment Inc and Tulip, Inc. Joint ED/OIG, FBI and Postal Inspection Service investigation
revealed that from August 1996 through February 1998, Sosa and Kuhn requested $3,150,309 and
fraudulently obtained $2,485,728 in federal student assistance funds after falsely reporting to the
Department that Emory College of Puerto Rico had complied with the 85/15 Rule. Investigation
determined that Emory College of Puerto Rico received in excess of 90% of its revenue from SFA
programs. The indictment further alleged that when Emory College closed in December 1997,
Sosa and Kuhn did not pay refunds due to students in excess of $130,000. Both Sosa and Kuhn
were arrested on March 1, 1999 pursuant to the indictment and several temporary restraining
orders for the assets of Sosa and Kuhn were served.


                        FRANK CEFARATTI, co-owner and president
                      CAROLE CEFARATTI-DIAZ, co-owner and director
                         GLORIA MALAVET, admissions director
                          MODESTA PEREZ, financial aid director
                       Franklin School of Cosmetology and Hair Design
                                      Elizabeth, New Jersey

Frank Cefaratti, the former co-owner and president of Franklin School of Cosmetology and Hair
Design, Elizabeth, New Jersey, pled guilty to various felony charges based on a three-year scheme
which defrauded the Department of Education of more than $846,000 in student financial
assistance funds. Cefaratti pled guilty in U.S. District Court, Harrisburg, Pennsylvania, to one
count each of mail fraud, student financial aid fraud, money laundering and obstruction of justice.
The scheme involved the mailing of hundreds of forged and fraudulent documents to loan
servicing agencies in an effort to reduce Franklin’s FFELP cohort default rate. By manipulating
Franklin’s default rate, Cefaratti was able to avoid termination of Franklin’s participation in the
Title IV student financial assistance programs. The obstruction-of-justice charge related to
Cefaratti’s removal and destruction of evidence seized during the execution of a federal search
warrant at the Franklin offices.

Cefaratti's sister, Carole Cefaratti-Diaz, a former co-owner and director, has also been charged in
an information filed in U.S. District Court, Harrisburg, Pennsylvania with mail fraud, student
financial aid fraud, money laundering and bank fraud. Cefaratti-Diaz allegedly directed
employees at Franklin to complete and submit fraudulent deferment and forbearance forms. The
criminal charge also alleged that she obtained a FFELP loan in her own name even though she had
never enrolled at Franklin.

Two former Franklin employees, Gloria Malavet and Modesta Perez, have also been charged in
the scheme and have pled guilty. Malavet, Franklin’s former director of admissions, and Perez,
Franklin’s former director of financial aid, have both been charged with one count of student
financial assistance fraud.

A third employee at Franklin entered into the Pretrial Diversion Program and was ordered to serve
one year of probation and complete 20 hours of community service for her role in the scheme.
(Semiannual Report No. 37, page 25)




                                                24
                      SUSAN K. JENSEN, owner and chief executive officer
                                   Interstate Business Colleges
                                     North Dakota and Arizona

In U.S. District Court, Fargo, North Dakota, Susan K. Jensen pled guilty to one count of student
financial aid fraud for failing to make student financial aid refunds of $543,765. Jensen was
charged in a 13-count indictment with conspiracy, false statements, money laundering, wire fraud,
student financial aid fraud and aiding and abetting. The charges against Jensen related to
fraudulent documents submitted to the Small Business Aministration in applications for disaster
relief funds and for failing to pay refunds totaling $543,765 owed to 278 students. According to
the indictment, Jensen, who owned and was the chief executive officer of the Interstate Business
Colleges in North Dakota and Arizona, also made false statements to the Department after
Interstate Business Colleges was placed on the system of reimbursement. On five occasions,
Jensen and others signed certifications to the Department stating that all Title IV refunds had been
made. As part of the guilty plea, Jensen agreed to make an undetermined amount of restitution for
her willful failure to pay refunds and agreed to pay an additional $368,311 to, or for the benefit of,
former students for whom credit balances were owed.


                  STEVEN R. NELSON AND FRANCES M. NELSON, owners
                                 Midwest Career College (MCC)
                                        Indianapolis, Indiana

Steven R. Nelson and his wife, Frances M. Nelson, who owned and operated Midwest Career
College (MCC), Indianapolis, Indiana, were indicted by a grand jury in the Southern District of
Indiana. The 26-count federal indictment charged that from approximately February 1994 to June
1996, the couple failed to refund or misappropriated approximately $140,000 of federal student
financial aid funds. ED/OIG and FBI agents arrested the Nelsons shortly after the indictment was
issued.

The Nelsons allegedly also participated in conspiracies relating to the sale of MCC and the
management of the Academy of Hair Design, also located in Indianapolis, resulting in a loss to the
government of approximately $65,000.

Rose King-Tarter, financial aid director and purchaser of MCC, and Tyrus Young, the Nelsons'
accountant, previously pled guilty to related charges and were sentenced in the Southern District
of Indiana. (Semiannual Report No. 37, page 26)


                       CHRISTINO BURGOS, former owner and president
                                 Interamerican Business College
                                      Humacao, Puerto Rico

Christino Burgos, the former owner and president of Interamerican Business College
(Interamerican), was sentenced in U.S. District Court, San Juan, Puerto Rico to ten months
incarceration in a halfway house and home confinement and was ordered to make restitution to the
Department of $180,351. Upon completion of his confinement, Burgos will serve five years of
supervised probation. As previously reported, Burgos admitted to making false certifications to
the Department on ED/PMS 272 reports regarding Interamerican's "cash on hand." Additionally,
Burgos admitted that he fraudulently drew down in excess of $180,000 in Pell Grants for students
purportedly enrolled at a closed campus. (Semiannual Report No. 37, pages 25-26)




                                                 25
                                GERRIT BATES, former treasurer
                                 Acme Institute of Technology
                                       South Bend, Indiana

Gerrit Bates, the former treasurer of the board of trustees of Acme Institute of Technology, was
sentenced in the U.S. District Court, South Bend, Indiana to one year and one day of incarceration;
three years supervised probation, and was ordered to pay restitution of $164,893. Bates previously
pled guilty to one count of aiding and abetting in the misapplication of student loan funds.
ED/OIG investigation determined that Bates instructed other Acme employees not to make student
loan refunds.


                            BEVERLY PURDIE, owner and president
                           Samverly Barber and Hairstyling College
                                      Atlanta, Georgia

Beverly Purdie, the president and owner of Samverly Barber and Hairstyling College, was
sentenced in U.S. District Court, Atlanta, Georgia, to five months home confinement and a
probation period of five years. ED/OIG investigation determined that Purdie drew down Pell
Grant funds on behalf of students who had withdrawn from school or who had failed to complete
the minimum number of required hours. Purdie was also ordered to pay restitution of $117,729.
(Semiannual Report No. 37, page 26)


                              GUYLA JANE BOORMAN, co-owner
                                    AJ's Cosmetology School
                                      Winter Park, Florida

Guyla Jane Boorman, a co-owner of AJ's Cosmetology School, was sentenced in U.S. District
Court, Orlando, Florida to three years probation. Boorman had previously admitted to instructing
an AJ employee to submit fraudulent documents to the Department in support of fraudulent Pell
and Direct Loan disbursements. ED/OIG investigation revealed that the fraudulent activity
resulted in $50,000 in improper second disbursements of Pell Grants and Direct Loans on behalf
of ineligible students. (Semiannual Report No. 37, page 27)


                          LAURA SMITH, former financial aid director
                                   ROOSEVELT LEE
                            American College for the Applied Arts
                                     Los Angeles, California

Laura Smith, the former financial aid director at American College for the Applied Arts, entered a
plea of guilty to one count of conspiracy in U.S. District Court, Los Angeles, California. In
pleading guilty, Smith admitted to conspiring with Roosevelt Lee, an acquaintance, to prepare
false PLUS loan applications using the names Jefferson Brown and Derrick Long. ED/OIG
investigation determined that Brown and Long were not enrolled at American College for the
Applied Arts. Smith also admitted that she and Lee had agreed to split the proceeds of the
fraudulent PLUS loans. Smith was sentenced to three years probation and ordered to pay
restitution of approximately $35,945. Prior to her sentencing, Smith paid $10,000 of the
restitution to the Department. Lee, who has also pled guilty, was sentenced for his role in the
scheme to one month of incarceration/home detention to be followed by a period of three years
probation. (Semiannual Report No. 37, page 27)


                                  ROBBIE REESE, receptionist

                                                26
                                    American Baptist College
                                       Nashville, Tennessee

Robbie Reese, a former receptionist at American Baptist College, was charged with one count of
making false statements in an information filed in U.S. District Court, Nashville, Tennessee.
ED/OIG investigation disclosed that Reese certified nine student loan applications valued at
$31,000 for a co-worker at American Baptist College. Reese was aware that the co-worker was
not attending classes at American Baptist College during the period certified on the loan
applications. Additionally, Reese was not authorized by the financial aid office to certify the
applications. Reese, who pled guilty to the information, was sentenced to a two-year period of
probation.


                           STATE UNIVERSITY OF WEST GEORGIA
                                        Carrolton, Georgia

The State University of West Georgia entered into and has paid in full a $21,231 civil settlement
with the Department and the Department of Justice as a result of the improper payment of Federal
Work Study (FWS) funds to student athletes. ED/OIG investigation disclosed that, between 1994
and 1997, members of the State University of West Georgia baseball team claimed FWS hours
worked and received FWS compensation for periods in which they were in class or participating in
intercollegiate athletic events. The athletes were paid $10,615 in FWS funds.


                                CHARLES ROTH, school director
                                     Flagler Career Institute
                                        Jacksonville, Florida

In U.S. District Court, Jacksonville, Florida, Charles Roth, the former school director of Flagler
Career Institute, Jacksonville, Florida was sentenced to two years probation and fined a $100
special assessment fee. Roth had earlier pled guilty to one count of making false declarations by
submitting false documents in a civil proceeding regarding Flagler's loss of accreditation. In
November 1997, Flagler's accreditation was terminated after it was discovered that the school was
offering two courses that were not accredited. In the civil proceeding, Roth created and submitted
to the court two fictitious checks that purportedly represented application fees for accreditation of
the two programs. (Semiannual Report No. 37, page 27)


                        CHARLOTTE CLINE, financial aid administrator
                                 American Weld Testing School
                                       Pasadena, Texas

Charlotte Cline, a former financial aid administrator at American Weld Testing School, was
sentenced in U.S. District Court, Houston, Texas, to three years probation and ordered to pay
restitution of $1,004. A joint ED/OIG and FBI investigation revealed that Cline became aware
that the General Education Development (GED) certificates in two American Weld Testing
student folders were identical except for the students' first names. Cline knew that without the
proper evidence of a high school diploma or GED certificate, these two students were ineligible to
receive federal student financial aid. Cline concealed the false documents and did not
expeditiously notify any authority of their falsity. Investigation is continuing. (Semiannual Report
No. 37, page 25)




         — Lenders, Servicers and Guaranty Agencies —

                                                 27
                                  WHITNEY NATIONAL BANK
                                      New Orleans, Louisiana

Whitney National Bank entered into a civil settlement agreement with the U.S. Department of
Justice and has paid $6.1 million in claims and damages. Whitney National Bank made and
serviced federally insured student loans from 1979 to 1992. Between 1987 and 1992, employees
of Whitney National Bank caused the submission of claims to three guaranty agencies with
misrepresentations about due diligence activities which were required to be performed, but which
had in fact not been performed. Investigation revealed that these employees failed to make
required telephone calls, falsified telephone logs and backdated alleged collection letters to
borrowers.


                           JAMES G.A. BISHOP, executive director
                            MANLEY B FEINSTEIN, board member
                           HARVEY C. JEWETT IV, board member
                           A. NORGRIN SANDERSON, board member
                                V.G. STOIA, board member
                               Education Assistance Corporation
                                      Aberdeen, South Dakota

James G.A. Bishop, former executive director and board member of Education Assistance
Corporation (EAC), Manley B. Feinstein, A. Norgrin Sanderson, Harvey C. Jewett IV and V.G.
Stoia, all former EAC board members, entered into a settlement agreement with the United States.
EAC, a non-profit corporation located in Aberdeen, South Dakota, is the designated guaranty
agency for federal student loans in the state of South Dakota. The settlement agreement required
the individuals to pay $250,000 as a result of certain related-party transactions.

EAC board members entered into agreements with Tel Serv Communications and Aberdeen Real
Estate Partnership. These two for-profit entities were owned and operated by the five board
member,s with the exception of Jewett, who did not have an interest in Tel Serv Communications.
According to the settlement agreement, between 1978 and 1998, the five referenced EAC board
members violated certain federal statutes and regulations and common law by causing the
submission of inappropriate claims for payments from the EAC FFELP reserve fund to Tel Serv
and Aberdeen Real Estate Partnership.




          — SFA Marketing/Financial Aid Consultants —
                                  SHEROLYN DENISE LARKIN
                                         Detroit, Michigan

Sherolyn Denise Larkin was sentenced in U.S. District Court, Detroit, Michigan to 40 months
incarceration to be followed by a two-year period of probation. Larkin was also ordered to pay
restitution in excess of $1.7 million. Joint ED/OIG and U.S. Secret Service investigation revealed
that Larkin falsified applications for student financial assistance and supporting income tax returns
on behalf of her clients to make them appear financially qualified to receive federal student aid
funds. The fraudulent income tax returns were submitted to the postsecondary institutions
attended by her clients in conjunction with their aid applications. (Semiannual Report No 36, page
25 and Semiannual Report No. 37, page 28)




                                                 28
                                      MICHAEL MOLITOR
                                     Molitor College Aid, Inc.
                                      Massapequa, New York

Michael Molitor, a financial aid planner and consultant, pled guilty in U.S. District Court,
Uniondale, New York, to one count of making false, fictitious and fraudulent claims to the
Department of Education. ED/OIG investigation disclosed that Molitor submitted hundreds of
fraudulent documents to the Department and to postsecondary institutions to make clients appear
financially eligible for Title IV student financial assistance. Molitor’s guilty plea was preceded by
his payment of $125,000 in restitution to the Department. Molitor also pled guilty to a similar
criminal charge in the New York State court system.




                     — Foreign Study FFEL Project —
                           LAMART GLENN, FREDERICK DALTON
                           HOWARD BANDY, A.K.A. KALID SMITH
                                 Le Cordon Bleu Cooking School
                                        London, England

Lamart Glenn, Frederick Dalton and Howard Bandy, A.K.A. Kalid Smith, were indicted by a
federal grand jury in the Eastern District of California on charges of mail fraud and aiding and
abetting. The indictment alleged that between February 1997 and July 1997, Glenn individually
or with Dalton and Smith completed and certified fraudulent Federal Family Education Loan
(FFELP) applications falsely claiming attendance at Le Cordon Bleu Cooking School, London,
England. As a result of the alleged false certifications, Glenn, Dalton and Bandy obtained
approximately $47,000 in FFELP funds. After the indictment, Dalton failed to appear in court to
answer the charges. He was subsequently arrested on unrelated charges.


                                ROBERT ANTHONY DOYLEY
                               ROCHELLE ANDERSON DOYLEY
                                         Kings College
                          University of London Institute of Psychiatry
                                        London, England

Robert Anthony Doyley, a Child Protective Services caseworker, and his wife Rochelle Anderson
Doyley pled guilty to one count of student financial aid fraud in U.S District Court, Houston,
Texas. Mr. Doyley was sentenced to 18 months incarceration, three years of probation and 200
hours of community service. He was also ordered to pay restitution of $70,477. Mrs. Doyley was
sentenced to two years probation and 200 hours of community service. She was ordered to pay
restitution of $17,860. ED/OIG investigation revealed that Robert Doyley forged school officials'
signatures on 10 FFELP applications falsely certifying that he was enrolled in medical school in
London, England. The Doyleys deposited over $70,000 into their joint checking account.
(Semiannual Report No. 37, page 30)




                                                 29
                                        GAIL ROBERSON
                             American University of the Caribbean
                                      Poughkeepsie, NY

Gail Roberson was sentenced in U.S. District Court, White Plains, New York to 18 months in
prison, three years probation and restitution totaling $18,500. Roberson, who earlier pled guilty to
one count of mail fraud, submitted four Federal Family Education Loan Program applications
between September 1997 and February 1998 using her name and the names of relatives. On each
of the applications, Roberson falsely claimed attendance in medical school at the American
University of the Caribbean in St. Maarten. Roberson also forged school official signatures on the
loan applications. Although Roberson applied for $69,000 in fraudulent FFELP funds, she only
received $18,500. ED/OIG investigation intercepted and prevented the disbursement of the
remainder of the fraudulent funds. After the criminal charges were initially filed against Roberson,
she attempted to have the case dismissed by presenting the Federal District Court and the U.S.
Attorney's Office with fraudulent medical records purporting to show that she was suffering from
a brain tumor. (Semiannual Report No. 37, page 30)


                                    JACQUES E. METELLUS
                          Universidad Federico Henriquez Y Carvajal
                                       Baltimore, Maryland

Jacques Metellus pled guilty to an information in U.S. District Court, Rochester, New York, which
charged him with one count of student financial assistance fraud. In pleading guilty, Metellus
admitted to a scheme to defraud the FFELP through the submission of loan applications bearing
false claims and forged certifications of enrollment at a medical school in the Dominican
Republic. Metellus applied for $37,000 in fraudulent FFELP funds between June and December
1997. ED/OIG investigation prevented the disbursement of $8,500. (Semiannual Report No. 37,
page 31)




                       — Other Investigative Cases —
                                    HUMPHREY ALAMS
                             A.K.A. HUMPHREY ALABARAONYE
                                       Seattle, Washington

Humphrey Alams, A.K.A. Humphrey Alabaraonye, a Nigerian citizen, was indicted on bank
fraud, false statements and false claims of citizenship charges in U.S. District Court, Seattle,
Washington. Alams, who had been a fugitive since 1983, was arrested and is currently being held
without bond. In 1983, Alams was indicted by a federal grand jury in Kansas City, Missouri on
student financial aid fraud. After he became a fugitive, he allegedly continued to defraud the
student financial aid programs by claiming to be a U.S. citizen on student loan applications. After
his 1983 indictment, Alams obtained almost $90,000 to attend five schools. The latest indictment
related to three student loans that Alams obtained for attendance at City University in Bellevue,
Washington. The indictment also included four charges pursuant to an $80,000 Small Business
Administration guaranteed loan.




                                                30
                        JOHN A. BAD WOUND, accounting manager
                      DANIEL R. BANUELOS, certified public accountant
                                     Oglala Lakota College
                                        Kyle, South Dakota

John A. Bad Wound, the former accounting manager at Oglala Lakota College (OLC) was
sentenced in U.S. District Court, Rapid City, South Dakota, to 151 months of incarceration to be
followed by a period of probation of three years. Bad Wound was ordered to pay restitution in
excess of $2.6 million for his role in a conspiracy that resulted in the embezzlement of over $2
million from OLC, a school located on the Pine Ridge Indian Reservation. A trial jury found Bad
Wound guilty of aiding and abetting, conspiracy, theft from a tribal organization, theft of federal
funds, transportation of stolen securities, tax evasion and money laundering.

A co-conspirator, Daniel R. Banuelos, was sentenced to one year and one day of incarceration, to
be followed by a probation period of three years. He was also ordered to pay restitution of
$114,470 to OLC. Banuelos, a certified public accountant, had previously pled guilty to
embezzlement from an Indian Tribal Organization.

Bad Wound and Banuelos were two of six individuals charged in the scheme in which OLC
checks were written and deposited into the bank accounts of fictitious businesses and/or
companies with which OLC did little if any business. The stolen funds were used to purchase real
estate, stocks, automobiles, drugs, art work, trips to Las Vegas, liaisons with prostitutes and
payment on Bad Wound's defaulted student loan. (Semiannual Report No. 34, page 22;
Semiannual Report No. 35, pages 31 and 32; Semiannual Report No. 36, pages 31 and 32; and
Semiannual Report No. 37, pages 36 and 37)


                               WILLIAM KENNETH WELLS III
                                 Northern Illinois Default Project

William Kenneth Wells III was indicted by a federal grand jury in Chicago, Illinois on seven
counts of mail fraud, wire fraud, student financial aid fraud and bank fraud. The indictment
charged that between January of 1989 and August of 1995, Wells defrauded the Department,
federally insured banks and guaranty agencies of $71,170 received for attendance at seven
schools in four states. Wells obtained the funds by concealing a defaulted student loan. Prior
to the indictment, ED/OIG agents arrested Wells in Malibu, California based upon a criminal
complaint filed in U.S. District Court, Northern District of Illinois.


                                        GLORY PERRIN
                                      A.K.A. GLORY EDU
                                      Santa Ana, California

Glory Perrin, a.k.a. Glory Edu, was indicted in U.S. District Court, Los Angeles, California and
charged with two counts of student financial aid fraud and two counts of claiming false
citizenship. Perrin, who was arrested by ED/OIG agents, allegedly claimed to be a U.S. citizen on
applications for student financial aid while enrolled at California State Polytechnic University,
Pomona, California as an undergraduate and graduate student. ED/OIG investigation revealed that
Perrin obtained approximately $38,800 in federal grants and guaranteed student loans over a five-
year period.




                                                31
                                        JAMES S. PANTERA
                                        Milwaukee, Wisconsin

A federal indictment against James S. Pantera was issued by a federal grand jury in Milwaukee,
Wisconsin. The three-count indictment charged that Pantera possessed a firearm while a fugitive,
made false statements to secure a passport and obtained federal student financial assistance funds
by using a false identity. Pantera, who pled guilty to two counts of the indictment, admitted to
fraudulently obtaining a passport and SFA funds. ED/OIG investigation disclosed that Pantera
obtained in excess of $68,000 in Federal Family Education Loan Program funds at the Medical
School of Wisconsin from July 1997 through August 1998. Pantera used a false date of birth and
a false Social Security number to receive the loan proceeds.


                                       MICHAEL EASTON
                                   A.K.A. MICHAEL BITGOOD
                                           Houston, Texas

Michael Easton pled guilty in U.S. District Court, Houston, Texas to one count of student financial
aid fraud and one count of bankruptcy fraud. A joint ED/OIG and FBI investigation revealed that
Easton used a false Social Security number to obtain federal student financial aid in 1985 and
subsequently defaulted on a guaranteed student loan. In 1988, Easton legally changed his name
from Michael Joseph Bitgood to Michael Easton. He subsequently used his assigned Social
Security number to apply for and receive federal financial aid from August 1991 through
September 1997. On his applications, Easton falsely reported his income and failed to notify the
Department and the University of Houston that he had previously obtained federal financial aid
funds and had previously defaulted on a student loan. Because of his false statements, Easton
fraudulently obtained in excess of $34,000 in federal student financial aid. (Semiannual Report
No. 37, page 34)


                                       THERESA BEARPAW
                                           Topeka, Kansas

Theresa Bearpaw was sentenced in U.S. District Court, Topeka, Kansas, to three years probation and
ordered to pay restitution in excess of $37,000. Bearpaw, who had previously pled guilty, admitted to
applying for federal student financial assistance using a fictitious Social Security number and failing
to disclose a previously defaulted student loan. Bearpaw fraudulently obtained the funds while
attending Washburn University from 1992 to 1996. (Semiannual Report No. 37, page 34)


                                          TONYA JORDAN
                                         Mariliville, Indiana

In U.S. District Court,Hammond, Indiana, a civil judgment in the amount of $18,349 was entered
against defendant Tonya Jordan. Jordan received federal Pell Grants by concealing her default
status on prior student loans. Previously, a civil complaint was filed with the court seeking treble
damages and fines for unjust enrichment in violation of Title 31 U.S.C. 3729 (False Claims Act).


                       RAFAEL RAFCA, former financial aid director
                  KARY SILVA, LETICIA VALDES AND EDGARDO MORAN
                                 Politechnical Institute of Florida
                                         Southern Florida

Kary Silva, a fugitive since October 1997, entered a plea of guilty to one count of conspiracy and
one count of bank fraud in U.S. District Court, Miami, Florida. Silva was one of nine individuals
indicted as part of a PLUS loan fraud scheme that resulted in the disbursement of $268,000 in

                                                  32
PLUS loans. Silva used fictitious parent and student names and Social Security numbers on PLUS
loan applications. Additionally, she recruited friends to assist her in the scheme. Silva admitted
being responsible for the disbursement of $148,000 in fraudulent PLUS loans.

The mastermind of the scheme, Rafael Rafca, was sentenced to 41 months incarceration to be
followed by a five-year period of probation. Rafca was also ordered to pay restitution on the
fraudulent loans totaling $268,000. Rafca, a former financial aid officer at Politechnical Institute
of Florida, provided the school codes of at least 11 colleges and universities in southern Florida to
his co-conspirators for submission on the fraudulent PLUS loan applications.

Leticia Valdes, who was convicted by a jury of conspiracy and bank fraud, was sentenced to 10
months incarceration to be followed by a three-year period of probation. She was also ordered to
pay $9,193 in restitution. An additional coconspirator, Edgardo Moran, was indicted by a federal
grand jury and subsequently arrested by ED/OIG agents. Moran, who has also pled guilty, was
charged with conspiracy and bank fraud. Moran admitted obtaining $96,000 in fraudulent PLUS
loan disbursements. (Semiannual Report No. 36, page 25 and Semiannual Report No. 37, page 36)


                                       DANIEL LABIANCA
                     New York City Community School Board District 14
                                    Brooklyn, New York

Daniel J. LaBianca, director of funded programs for the New York City Community School Board
District 14, was arrested and pled guilty to one count of embezzlement in U.S. District Court,
Brooklyn, New York. Investigation disclosed that LaBianca participated in a scheme to defraud
the Department by preparing and submitting false Title I funding applications. (Semiannual
Report No. 37, page 33)


                        LOYCE COLE, management and program analyst
              U.S. Department of Education, Office of Postsecondary Education
                                     Washington, DC

Loyce Cole was sentenced in U.S. District Court, Washington, DC. to two years probation and
was ordered to pay restitution to the Department of Education in the amount of $13,050. ED/OIG
investigation revealed that Loyce Cole, an employee of the Office of Postsecondary Education,
fraudulently completed and submitted an Application and Promissory Note for Federal PLUS
Loan using a false Social Security number and date of birth. This activity resulted in the receipt of
an $8,000 PLUS loan on behalf of her daughter. In addition, Cole fraudulently completed and
submitted a Student Aid Report and a renewal Free Application for Federal Student Aid on which
she failed to disclose her income. Cole's daughter subsequently fraudulently received Pell Grant,
Supplemental Educational Opportunity Grant and Perkins Loan funds totaling $9,400.


                            JACQUELINE WARREN, administrative assistant
                                  U.S. Department of Education
                                         Chicago, Illinois

Jacqueline Warren, administrative assistant in the Office of the Secretary’s Regional Representative
in Chicago, was sentenced to two months of community incarceration and eight months of in-home
confinement. Warren, who had earlier pled guilty to wire fraud, was also ordered to serve three
years supervised probation and make restitution to the Department totaling $6,791. She was also
ordered to make restitution to creditors she defrauded in a bankruptcy fraud scheme and refrain
from applying for new credit without the consent of the U.S. Probation Office.

ED/OIG investigation revealed that beginning on or about July 1994 and continuing to about July
1995, Warren unlawfully used the U.S. Government IMPAC Visa credit card to purchase $6,791

                                                 33
worth of goods and services for her personal use, knowing that such purchases and transactions were
not authorized or permitted by ED, and that they would be billed to the Department for payment.
Among the unauthorized items purchased by Warren for her personal use were, electronic audio and
video equipment (VCR camcorder, 35mm camera, two 5" Sony Watchman televisions, a stereo
system, etc.), women’s and girls’clothing, cosmetics, leather goods, perfume, groceries and luggage.
(Semiannual Report No. 37, page 35)


                                        RICKY GRIFFIN
                                     Los Angeles, California

Ricky Griffin, a co-conspirator of the Priscilla Ann Hamilton tax and loan fraud ring, was
sentenced in U.S. District Court, Los Angeles, California to 10 months incarceration to be
followed by a five-year period of probation. Griffin was also ordered to pay restitution of $4,000
to the Department and $11,000 to the Internal Revenue Service. Griffin was one of several people
indicted in 1996 for his role in obtaining fraudulent PLUS loans using school codes from the
University of Southern California, Grambling State University and the University of Houston.
(Semiannual Report No. 35, page 25)


                               CASONDRA A. TSHIMANGA
                           JEAN CLAUDE TSHIMANGA KOLANDA
                                       Fremont, California

Casondra A. Tshimanga and Jean Claude Tshimanga Kolanda each pled guilty to one count of
conspiracy in U.S. District Court, Oakland, California. A joint OIG and FBI investigation
revealed that the Tshimangas defrauded several credit card companies and a school in Hayward,
California. Using these two schemes, the Tshimangas fraudulently obtained in excess of $285,000
in credit card and student financial aid proceeds.


                       DR. HELMY QURTOM AND SAWSAN KURTOM
                                       Beltsville, Maryland

Dr. Helmy Qurtom and his wife, Sawsan Kurtom, were sentenced in U.S. District Court, District
of Maryland, for their felony convictions for theft of government property. Dr. Qurtom, a
practicing neonatologist with hospital privileges at three Washington area hospitals, was sentenced
to serve five months incarceration and five months of home detention followed by three years of
supervised release. In addition, Dr. Qurtom was ordered to perform 100 hours of community
service and pay a $15,000 fine. Mrs. Kurtom was sentenced to serve three years of probation,
with the first six months in home detention, and pay a $5,000 fine.

From 1993 until 1997, the defendants received approximately $71,000 in food stamps, plus
medical and public assistance to which they were not entitled because of their income, by filing
false applications with the Prince George's County (Maryland) Department of Social Services.
Along with their children, the defendants had also filed nine false student financial aid
applications for benefits from the Department and wrongfully received $47,766. The defendants
have made full restitution to the Department.




                                                34
                              RECOMMENDATIONS DESCRIBED IN PREVIOUS SEMIANNUAL REPORTS
                                ON WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

Section 5(a)(3) of the Inspector General Act requires a listing of each report resolved before the commencement of the reporting period for which management
has not completed corrective action. The reports listed below are OIG internal and nationwide audit reports and management improvement reports.

                                                                                                                                       TOTAL            SEMIANNUAL
REPORT                                                                                                                  DATE         MONETARY             REPORT
NUMBER      AUDITEE/TITLE                                                                                             RESOLVED        FINDINGS           NO. PAGE

OFFICE OF ELEMENTARY AND SECONDARY EDUCATION

11-20202    CHANGES TO IMPACT AID PROGRAMS' SITE REVIEW PROCESS SHOULD                                                   09/30/94      4,382,000           26   85
             IMPROVE EFFICIENCY AND ASSURE BETTER USE OF PROGRAM FUNDS

OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES

03-50201    COORDINATION AND COLLABORATION WITHIN OSERS                                                                  09/30/97          *               34   18
             TO BETTER SERVE CUSTOMERS AND MANAGE PROGRAMS
11-50201    OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES                                                      09/30/98          *               35   19
             SECRETARIAL REVIEW PROCESS IN NEED OF CHANGE


OFFICE OF POSTSECONDARY EDUCATION

11-00010    THE OFFICE OF STUDENT FINANCIAL ASSISTANCE DID NOT ASSURE THAT ALL INSTITUTIONS                              09/30/93      33,800,000          24   63
             SUBMITTED AUDIT REPORTS OR THAT IT RECOVERED ALL MISSPENT FUNDS
11-90040    THE INSTITUTIONAL ELIGIBILITY PROCESS DOES NOT PROVIDE ADEQUATE ASSURANCE                                    09/30/93       482,000            22   6
             THAT ONLY ELIGIBLE SCHOOLS PARTICIPATE IN THE TITLE IV PROGRAMS
92-05**     EDUCATION NEEDS TO STRENGTHEN STUDENT LOAN CURE PROCEDURES                                                   09/30/93     154,000,000          24   12
92-10**     STRICTER STANDARDS NEEDED FOR THE GRANTING OF FORBEARANCES                                                   09/30/93          *               25    3
92-13**     ED NEEDS TO CHANGE THE LEGISLATIVE DEFINITION OF LOANS IN REPAYMENT                                          01/31/94          *               25    5
05-20075    REPORT ON THE EFFECTIVENESS OF THE REGIONAL INSTITUTIONAL REVIEW BRANCHES' MONITORING                        08/31/94          *               28   19
             OF INSTITUTIONS PARTICIPATING IN THE STUDENT FINANCIAL ASSISTANCE PROGRAMS
             FOR THE PERIOD OCTOBER 1, 1989 THROUGH SEPTEMBER 30, 1992
17-30302    FINANCIAL AUDIT: FEDERAL FAMILYEDUCATION LOAN PROGRAM'S FINANCIAL STATEMENTS                                 10/31/94          *               29   16
             FOR FISCAL YEARS 1993 AND 1992
11-30001    INCONSISTENT INSTITUTIONAL PELL GRANT REPORTING RESULTS IN SIGNIFICANT                                       07/31/95          *               29   15
             EXPENDITURE DISCREPANCIES
04-40100    HELPING TO ASSURE EQUALIZED EDUCATIONAL OPPORTUNITIES WITH HEA, TITLE III                                    08/31/95          *               31   11
             INSTITUTIONAL AID FUNDS - GLOBAL PERFORMANCE MEASURES NEEDED
17-30305    ANNUAL INTEREST GRANTS: IMPROVING THE PROCESS FOR PAYING THE REMAINING                                       02/29/96      5,025,272           31   14
             GRANTS
11-40001    FOLLOW-UP REVIEW ON SELECTED GATEKEEPING OPERATIONS                                                          02/29/96          *               31   13
05-40005    ED NEEDS TO CONSIDER IMPLEMENTING CHANGES FOR MONITORING                                                     03/31/96          *               32   10
             LENDERS AND SERVICERS
REPORT                                                                                                DATE      MONETARY       REPORT
NUMBER      AUDITEE/TITLE                                                                           RESOLVED     FINDINGS     NO. PAGE

04-38000    LESSONS LEARNED FROM RTC=S HANDLING OF FEDERAL FAMILY EDUCATION LOANS.                   08/31/96        *        32        9
             STRATEGY NEEDED TO HANDLE STUDENT LOAN ADMINISTRATIVE ISSUES INVOLVING
             FAILED OR BANKRUPT INSTITUTIONS PARTICIPATING IN THE FEDERAL FAMILY EDUCATION
             LOAN PROGRAM
04-60001    PROCESS ENHANCEMENTS IN THE HEA, TITLE III, INSTITUTIONAL AID PROGRAM                    08/31/96        *        32        9
             WOULD INCREASE PROGRAM EFFICIENCY, DESPITE LIMITED RESOURCES
06-30004    MANAGING FOR RESULTS: REVIEW OF PERFORMANCE-BASED SYSTEMS AT                             08/31/96        *             31       7
             SELECTED ACCREDITING AGENCIES
07-48051    CLOSED SCHOOLS: $2.4 BILLION UNAUDITED                                                   06/30/96        *             31   13
06-50010    THE ELECTRONIC DATA EXCHANGE: A SECURITY REVIEW IS NEEDED                                12/31/96        *             33   12
03-60001    COMING TOGETHER TO FACE THE CHALLENGES OF AN UNCERTAIN FUTURE: A REVIEW OF               03/31/97        *             33   29
             THE MANGEMENT SYSTEMS AND STRUCTURE OF THE U.S. DEPARTMENT OF EDUCATION,
             OFFICE OF POSTSECONDARY EDUCATION, OFFICE OF STUDENT FINANCIAL ASSISTANCE PROGRAMS
09-38058    THE DEPARTMENT SHOULD CONTINUE ITS EFFORTS TOIMPROVE THE ACCURACY OF ITS STUDENT LOAN
            DATABASE                                                                                 03/31/97        *             33   13
11-50001    ACCURACY OF STUDENT AID AWARDS CAN BE IMPROVED BY OBTAINING INCOME DATA
             FROM THE INTERNAL REVENUE SERVICE                                                       06/30/97   109,000,000        34   08
06-50001    REVIEW OF ACCREDITING AGENCIES’MONITORING OF MEMBER INSTITUTIONS                         3/31/98         *             34   09


OFFICE OF THE CHIEF FINANCIAL OFFICER
11-00333    GREATER EMPHASIS NEEDED TO DEOBLIGATE UNEXPENDED CONTRACT                                03/31/94    7,500,000         26   17
             FUNDS AND CLOSE OUT CONTRACTS ON TIME
17-40302    FINANCIAL STATEMENT AUDIT: U.S. DEPARTMENT OF EDUCATION                                  08/31/95        *             31   12
             FEDERAL FAMILY EDUCATION LOAN PROGRAM FOR THE YEARS
             ENDED SEPTEMBER 30, 1994 AND 1993
17-48320    FINANCIAL STATEMENT AUDIT U.S. DEPARTMENT OF EDUCATION                                   09/30/95        *             30   20
             FEDERAL DIRECT LOAN PROGRAM FOR THE YEAR ENDED SEPTEMBER 30, 1994
17-40303    REPORT OF INDEPENDENT ACCOUNTANTS ON THE DEPARTMENT’S ANNUAL FINANCIAL                   03/31/97        *             33   14
             STATEMENTS FOR THE YEAR ENDED SEPTEMBER 30, 1995




 * Non-monetary findings only
** Management improvement report
        ED/OIG REPORTS ON EDUCATION DEPARTMENT PROGRAMS AND ACTIVITIES
                                                        (October 1, 1998 – March 31, 1999)


Section 5(a)(6) of the Inspector General Act requires a listing of each report completed by OIG during the reporting period. A total of 12 reports were
completed by ED/OIG auditors. These reports are listed below. In addition we also issued 29 alternative products which include action memorandums and
management reviews.
                                                                                                              QUESTIONED
                                                                                                                  COSTS
                                                                                                                (excluding       UNSUPPORTED         BETTER USE
ACN           AUDITEE/REPORT TITLE                                                    STATE     ISSUED         unsupported)         COSTS             OF FUNDS

OFFICE OF POSTSECONDARY EDUCATION

A04-80006     REVIEW OF THE FEDERAL PERKINS LOAN PROGRAM AT CLARK                         GA    DEC-98              *
               ATLANTA UNIVERSITY, ATLANTA, GEORGIA
A04-80029**   REVIEW OF THE FLORIDA OFFICE OF STUDENT FINANCIAL ASSISTANCE                FL    NOV-98              *
               YEAR 2000 READINESS PLANS
A04-80031**   REVIEW OF THE TENNESSEE STUDENT ASSISTANCE CORPORATION’S                    TN    DEC-98              *
               YEAR 2000 READINESS PLANS
A04-90010**   REVIEW OF THE YEAR 2000 READINESS PLANS AT FINANCIAL AID                    DC    MAR-99              *
               MANAGEMENT FOR EDUCATION, INC., FT. LAUDERDALE, FLORIDA
N04-70011     INSPECTION OF CTI’S FEDERAL STUDENT FINANCIAL AID PROGRAMS                  DC    DEC-98              *
A05-80008     ANTONELLI COLLEGE’S ADMINISTRATION OF STUDENT FINANCIAL ASSISTANCE          OH    FEB-99          6,653
               PROGRAMS
A05-90013     AUDIT OF ELIGIBILITY UNDER THE 85 PERCENT RULE AT TAYLOR BUSINESS           IL    FEB-99              *
               INSTITUTE, CHICAGO, ILLINOIS
A05-90019**   REVIEW OF THE ILLINOIS STUDENT ASSISTANCE COMMISSION’S YEAR 2000            IL    MAR-99              *
               READINESS PLAN
A07-70008     REVIEW OF THE EFFECTIVENESS OF PROVISIONAL CERTIFICATION                    DC    JAN-99              *
               ADMINISTERED BY THE U.S. DEPARTMENT OF EDUCATION
A09-80023     ACADEMY PACIFIC BUSINESS & TRAVEL COLLEGE ELIGIBILITY TO                    CA    DEC-98      6,649,689
               PARTICIPATE IN TITLE IV PROGRAMS
A09-80028**   SANTA BARBARA BUSINESS COLLEGE’S INSTITUTIONAL ELIGIBILITY UNDER THE        CA    DEC-98              *
               85 PERCENT RULE REQUIREMENT
A09-80031**   SAN DIEGO GOLF ACADEMY’S INSTITUTIONAL ELIGIBILITY UNDER THE 85             CA    NOV-98              *
               PERCENT RULE REQUIREMENT
A09-80032**   REVIEW OF CALIFORNIA STUDENT AID COMMISSION’S YEAR 2000 READINESS           CA    NOV-98
               PLANS
A09-90003**   INSTITUTIONAL ELIGIBILITY UNDER THE 85 PERCENT RULE FOR INSTITUTION’S       CA    JAN-99              *
               OWNED BY HIGH-TECH INSTITUTE
A11-70002     AUDIT OF THE POSTSECONDARY EDUCATION PARTICIPANTSSYSTEM                     DC    FEB-99              *
               DEVELOPMENT
A11-70010     REVIEW OF THE DEPARTMENT’S SYSTEM REQUIREMENTS DEFINITION &                 DC    MAR-99              *
               TESTING PROCESS FOR THE LOAN ORIGINATION AND LOAN CONSOLIDATION
               SYSTEMS
                                                                                                              QUESTIONED
                                                                                                     COSTS
                                                                                                   (excluding    UNSUPPORTED   BETTER USE
ACN           AUDITEE/REPORT TITLE                                            STATE    ISSUED     unsupported)      COSTS       OF FUNDS

OFFICE OF POSTSECONDARY EDUCATION (continued)

S13-70001     STUDY OF COST ISSUES: FEDERAL FAMILY EDUCATION LOAN PROGRAM/        DC   MAR-99         *
               FEDERAL DIRECT LOAN PROGRAM
SFA 99-01     INFORMAL CONTRACT TASK ORDERS/MODIFICATIONS                         DC   OCT-98         *
SFA 99-02     OUTSTANDING TITLE IV WIDE AREA NETWORK REMITTANCES                  DC   NOV-98         *
SFA 99-03     DREXEL UNIVERSITY REPORTED INCORRECT STUDENT STATUS DATA            PA   NOV-98         *
               TO THE NATIONAL STUDENT LOAN CLEARINGHOUSE (NSLC)
SFA 99-04     OFFICE OF INSPECTOR GENERAL ALERT CONCERNING UNMADE REFUNDS         IL   NOV-98         *
               AND LATE REFUNDS BY CITY COLLEGES OF CHICAGO
SFA 99-05     TITLE IV WIDE AREA NETWORK CONTRACT — INAPPROPRIATE CHARGES         DC   DEC-98         *
               FOR KEY PERSONNEL TO NEW TASKS AND OTHER NCS CONTRACTS
SFA 99-06     PROFESSIONAL JUDGEMENT ACTIONS NOT ALWAYS REPORTED BY SCHOOLS       DC   JAN-99         *
SFA 99-07     TREATMENT OF INSTITUTIONAL SCHOLARSHIPS, INSTITUTIONAL LOANS,       DC   JAN-99         *
               INSTITUTIONAL MATCHING FUNDS AND PERKINS LOAN PROGRAM IN THE
               85 PERCENT RULE CALCULATION
SFA 99-08     FINANCIAL STATEMENTS OF COMPUTER DYNAMICS INSTITUTE, INC. (CDI)
               IN VIRGINIA BEACH, VIRGINIA MAY NOT MEET THE REGULATORY
               REQUIREMENTS FOR ACCEPTANCE                                        DC   FEB-99         *
SFA 99-09     DEPARTMENT OFFICIALS SHOULD AVOID THE APPEARANCE OF LIMITIN G       DC   FEB-99         *
               FULL AND OPEN COMPETITION
SFA 99-10     CONCERNS REGARDING THE MONITORING OF THE GUARANTY AGENCY            DC   MAR-99         *
               QUALITY CONTROL PILOT PROGRAM AT THE ILLINOIS STUDENT ASSISTANCE
               COMMISSION
S&L 99-02     NUMBER OF STUDENTS SERVED BY UPWARD BOUND AT CREIGHTON UNIVERSITY   NE   MAR-99         *
SYS 99-03     Y2K READINESS OF SFA SERVICERS                                      DC   MAR-99         *


OFFICE OF ELEMENTARY AND SECONDARY EDUCATION
A03-80001     SAFE AND DRUG-FREE SCHOOLS: INCREASING ACCOUNTABILITY AND           DC   DEC-98         *
               PRESERVING FLEXIBILITY
A05-90005     AUDIT OF UNEMPLOYMENT AND WORKERS COMPENSATION CHARGES BY THE       MI   FEB-99         *
               DETROIT PUBLIC SCHOOLS, DETROIT, MICHIGAN
A05-90021**   REVIEW OF DETROIT PUBLIC SCHOOLS’YEAR 2000 READINESS PLANS          MI   FEB-99         *
A07-80004     STATE OF MISSOURI SUSTAINABILITY OF THE SCHOOL-TO-WORK              MO   NOV-98         *
               OPPORTUNITIES PROGRAM
S14-80010     AN OIG PERSPECTIVE ON THE REAUTHORIZATION OF THE ELEMENTARY         DC   FEB-99         *
               AND SECONDARY ACT
S&L 99-01     ADMINISTRATION OF PUBLIC CHARTER SCHOOLS PROGRAM GRANT BY           AZ   OCT-98         *-
               THE ARIZONA DEPARTMENT OF EDUCATION


OFFICE OF CHIEF FINANCIAL OFFICER

A07-80017     AUDIT OF PUBLIC INQUIRY CONTRACT, NATIONAL COMPUTER SYSTEMS,        IA   NOV-98         *
               IOWA CITY, IA

                                                                                                QUESTIONED
                                                                                                    COSTS
                                                                                                    (excluding    UNSUPPORTED   BETTER USE
ACN              AUDITEE/REPORT TITLE                                             STATE   ISSUED   unsupported)      COSTS       OF FUNDS

OFFICE OF CHIEF FINANCIAL OFFICER(continued)

A11-80011        FUNDING THE YEAR 2000 CONVERSION A REPORT ON ED’S Y2K
                 COST ESTIMATES                                                     DC    DEC-98       *
S11-80014        REVIEW OF YEAR 2000-RELATED RISK TO PROGRAMS ADMINISTERED
                 UNDER TITLE IV OF THE HIGHER EDUCATION ACT                         DC    JAN-99       *


OFFICE OF CHIEF FINANCIAL OFFICER(continued)

SYS 99-01        CONTINUED CONCERN ABOUT RECONCILIATION OF PAYEE RECORDSTO GAPS     DC    DEC-98
SYS 99-02        TESTING OF MISSION IMPORTANT AND MISSION SUPPORTIVE SYSTEMS        DC    JAN-99       *
                  FOR YEAR 2000 COMPLIANCE
FIN 99-01        SURVEY REVIEW OF THE GRANT ADMINISTRATION AND PAYMENT SYSTEM       DC    JAN-99       *
                  (GAPS) RECONCILIATION PROCESS




* Non-monetary findings only
** Information Report
A – Audit
S - Special Project
N - Inspection Reports
SFA - Student Financial Assistance Action Memo
S&L - State and Local Action Memo
SYS - Systems Action Memo
FIN - Financial Action Memo
                             INSPECTOR GENERAL ISSUED REPORTS
                                                        1
                                  WITH QUESTIONED COSTS




                                                NUMBER               QUESTIONED                UNSUPPORTED 2

A.       For which no management
         decision has been made by
         the commencement of the
         reporting period (as adjusted)              28              $ 107,426,745             $ 17,494,325

B.       Which were issued during
         the reporting period                         2                    6,656,342                           0

         Subtotals (A + B)                           30              $ 114,083,087             $    17,494,325

C.       For which a management
         decision was made during
         the reporting period                         4              $    4,945,416            $          36,138

         (i) Dollar value of
             disallowed costs                                             2,635,847                       36,138

         (ii) Dollar value of
              costs not disallowed                                       2,309,569                            0

D.       For which no management
         decision has been made by
         the end of the reporting
         period                                      26              $ 109,137,671             $ 17,458,187

E.       For which no management
         decision was made within
         six months of issuance                      17               $ 71,338,611             $ 13,692,889




     1
         None of the audits reported in this table were performed by the Defense Contract Audit Agency.
     2
         Included in questioned costs.
                          INSPECTOR GENERAL ISSUED REPORTS
                             WITH RECOMMENDATIONS FOR
                                BETTER USE OF FUNDS1



                                                                   NUMBER                    DOLLAR VALUE


A. For which no management
   decision has been made by
   the commencement of the
   reporting period (as adjusted)                                         4                        $ 18,191,552

B. Which were issued during
   the reporting period                                                   0                                  0

             Subtotals (A + B)                                            4                        $ 18,191,552

C. For which a management
   decision was made during
   the reporting period                                                   1                             991,552

   (i)       Dollar value of recommendations
             that were agreed to by
             management                                                   0                                  0

   (ii)      Dollar value of recommendations
             that were not agreed to
             by management                                                1                             991,552

D. For which no management
   decision has been made by
   the end of the reporting
   period                                                                 3                        $ 17,200,000

E. For which no management
   decision was made within
   six months of issuance                                                 3                        $ 17,200,000




   1
       None of the audits reported in this table were performed by the Defense Contract Audit Agency.
                                  UNRESOLVED REPORTS ISSUED PRIOR TO OCTOBER 1, 1998

Section 5(a)(10) of the Inspector General Act requires a listing of each report issued before the commencement of the reporting period for which no management decision
has been made by the end of the reporting period.
                                                                                                        TOTAL                   PROJECTED           SEMIANNUAL
REPORT                                                                                   DATE        MONETARY          REASONS MANAGEMENT           REPORT PAGE
NUMBER AUDITEE/TITLE                                                             ST     ISSUED        FINDINGS         OVERDUE   DECISION            NO.   NO.


OFFICE OF ELEMENTARY AND SECONDARY EDUCATION

02-56113   VIRGIN ISLANDS DEPARTMENT OF EDUCATION                                VI     02/17/95        10,375,000         05           ***          30       17
02-50200   THE PUERTO RICO DEPARTMENT OF EDUCATION MUST INSTITUTE A TIME         PR     11/14/97                 *         05           ***          36       13
            DISTRIBUTION SYSTEM
03-70001   AUDIT OF THE DISTRICT OF COLUMBIA PUBLIC SCHOOLS’                     DC     01/23/98           210,651         05           ***          36       15
            ADMINISTRATION OF THE SAFE SCHOOLS GRANT
06-60010   REVIEW OF CHARGES FOR UNEMPLOYMENT COMPENSATION INSURANCE             LA     01/28/98         2,265,212         01           ***          36       18
            NEW ORLEANS PUBLIC SCHOOLS


OFFICE OF SPECIAL EDUCATION AND REHABILIATIVESERVICES

04-53670   FLORIDA STATEWIDE                                                     FL     10/04/95         2,855,402         05           ***


OFFICE OF POSTSECONDARY EDUCATION

09-10007   WESTERN TRUCK SCHOOL                                                  CA     09/10/92         8,834,503         01         09/30/99       25       78
06-60004   FINANCIAL AID ADMINISTRATORS’USE OF PROFESSIONAL JUDGEMENT            DC     07/31/97                 *         01           ***          35       13
06-60006   ELIMINATING ADVANCE FUNDING WOULD ENHANCE THE INTEGRITY               DC     08/28/97                 *         01           ***          35       13
            OF THE FEDERAL PELL GRANT PROGRAMS
03-60009   ADMINISTRATION OF THE WILLIAM D. FORD FEDERAL DIRECT LOAN             DC     10/15/97                 *         01           ***          36       12
            PROGRAM BY SCHOOLS
05-70004   STRATEGIC PLANNING AND PERFORMANCE MEASUREMENT FOR                    DC     11/12/97                 *         01           ***          36       16
            GUARANTOR AND LENDER OVERSIGHT SERVICE ACTIVITIES CAN
            HELP FOSTER ACHIEVEMENT OF AN EFFICIENT AND EFFECTIVE
            FEDERAL FAMILYEDUCATION LOAN PROGRAM
06-70005   PROFESSIONAL JUDGEMENT AT YALE UNIVERSITY                             CT     03/13/98             5,469         01         09/30/99       36       18
09-70003   REVIEW OF R.GONZALEZ MANAGEMENT, INC.’S PROCESSING OF STUDENT         CA     04/21/98                 *         01         09/30/99       37       19
            FINANICAL ASSISTANCE TRANSACTIONS AND REPORTS FOR VOCATIONAL
             SCHOOLS
07-70002   INCOME CONTINGENT REPAYMENT: COST ATTRIBUTION AND BORROWER            DC     06/01/98                 *        ***                        37       19
            STUDIES COULD ASSIST TO MEET THE OBJECTIVES OF FEDERAL
            FINANCIAL REPORTING AND PROGRAM MANAGEMENT

                                                                                                                              PROJECTED
REPORT                                                                                   DATE        MONETARY          REASONS MANAGEMENT           REPORT PAGE
NUMBER AUDITEE/TITLE                                                       ST   ISSUED     FINDINGS     OVERDUE   DECISION    NO.   NO.


OFFICE OF POSTSECONDARY EDUCATION (continued)

06-70004   APPLICANTS WITH DEFAULTED STUDENT LOANS CONTINUE TO RECEIVE     DC   06/23/98            *     01         ***      37    18
            FINANCIAL AID
06-70009   PROFESSIONAL JUDGEMENT AT THE UNIVERSITY OF COLORADO            CO   07/17/98      15,082      01       09/30/99   37    17
05-80011   INSTITUTIONAL PARTICIPATION AND OVERSIGHT SERVICE HAS           DC   08/24/98           *      01         ***      37    16
            OPPORTUNITIES TO IMPROVE THE RECERTIFICATION PROCESS
09-70015   ASSOCIATED TECHNICAL COLLEGE ELIGIBILITY OF                     CA   09/09/98    8,600,000     01       09/30/99   37    16
            INSTITUTIONS TO PARTICIPATE IN TITLE IV PROGRAMS AND OTHER
            ISSUES
05-80007   THE DEPARTMENT OF EDUCATION HAS AN OPPORTUNITY TO IMPROVE       WI   09/23/98            *     ***                 37    18
            ITS MANAGEMENT OF THE DEFAULT AVERSION PROGRAM
05-70015   AUDIT OF THE GUARANTOR AND LENDER OVERSIGHT SERVICES’           DC   09/24/98            *     ***                 37    16
            OVERSIGHT OF LENDERS PARTICIPATING IN THE FEDERAL FAMILY
            EDUCATION LOAN PROGRAM
04-70016   REVIEW OF THE DEPARTMENT’S OVERSIGHT OF SCHOOLS PARTICIPATING   DC   09/25/98            *     ***                 37    15
            IN THE WILLIAM D. FORD FEDERAL DIRECT LOAN PROGRAM
05-40007   REPORT ON THE TRANSITIONAL GUARANTY AGENCY'S                    MN   06/02/95            *     ***                 31    07
            ROLE IN GUARANTY AGENCY TRANSITION STRATEGY
05-80005   CENTRAL STATE UNIVERSITY SUPPORT SERVICES PROGRAM               OH   03/16/98      36,366      ***                 36    17
07-80005   REVIEW OF THE TITLE III, STRENGTHENING INSTITUTIONS PROGRAM     KS   07/10/98           *      ***                 37    18
            AUDIT AT DONNELLY COLLEGE, KANSAS CITY, KANSAS
07-23545   MISSOURI STATEWIDE                                              MO   04/01/93    1,048,768     01         ***      **
09-10005   CALIFORNIA STUDENT AID COMMISSION, SACRAMENTO, CALIFORNIA       CA   09/10/93   41,100,000     01         ***      27    17
            THE COMMISSION’S LOAN ON REPAYMENT WAS OVERSTATED BY
            $1.5 BILLION
09-33114   STATE OF CALIFORNIA                                             CA   12/24/93    4,191,032     01         ***      28    18
07-33123   MISSOURI STATEWIDE                                              MO   03/07/94      187,530     01         ***      **
05-30010   AUDIT OF THE FEDERAL EDUCATION LOAN PROGRAM ADMINISTERED        MN   08/16/94      619,287     01         ***      29    31
            BY NORTHSTAR GURANTEE, INC., ST. PAUL, MINNESOTA
04-60147   REVIEW OF SELECTED ASPECTS OF THE KENTUCKY HIGHER EDUCATION     KY   02/18/97    1,263,251     02       06/30/99   34    9
            ASSISTANCE AUTHORITY’S ADMINISTRATION OF THE FEDERAL
            FAMILY EDUCATION LOAN PROGRAM
06-70001   NSLDS CAN BE ENHANCED IF LOAN PRINCIPAL AND INTEREST            DC   09/30/98            *     ***                 37    17
            BALANCES AND STATUSES ARE UPDATED WITH LENDER DATA


OFFICE OF VOCATIONAL AND ADULT EDUCATION

04-43134   FLORIDA STATEWIDE                                               FL   12/05/94     615,996      05         ***
07-70004   STATE OF NEW MEXICO: SUSTAINABILITY OF THE SCHOOL-TO-WORK       NM   05/27/98           *      01         ***      37    21
            OPPORTUNITIES PROGRAM
                                                                                                                                  PROJECTED
REPORT                                                                                DATE            MONETARY             REASONS MANAGEMENT                   REPORT PAGE
NUMBER AUDITEE/TITLE                                                          ST     ISSUED            FINDINGS            OVERDUE   DECISION                    NO.   NO.


OFFICE OF EDUCATIONAL RESEARCH AND IMPROVEMENT

03-60006    REVIEW OF THE COOPERATIVE AGREEMENT FOR THE NATIONAL           PA        01/28/97                      *           ***                              34    19
             CENTER FOR ADULT LITERACY AWARDED TO THE UNIVERSITY
             OF PENNSYLVANIA FOR THE PERIOD NOVEMBER 1, 1992
             THROUGH MARCH 31, 1996
09-60009    WESTED’S ADMINISTRATION OF THE REGIONAL EDUCATIONAL LABORATORY CA        03/31/98             3,031,000             01            04/30/99          36     19
             CONTRACTS


OFFICE OF CHIEF FINANCIAL OFFICER

05-70017    REVIEW OF INDIRECT COSTS CLAIMED OHIO – REHABILITATION SERVICES   OH     11/21/97               538,210             05               ***            36     16
             COMMISSION FISCAL YEARS 1993 AND 1994
17-60002    AUDIT OF DEPARTMENT’S FISCAL YEAR 1996 AND 1995 ANNUAL            DC     07/31/97                      *           ***                              35    19
             FINANCIAL STATEMENTS
11-70007    THE STATUS OF EDUCATION’S IMPLEMENTATION OF THE CLINGER-          DC     03/31/98                      *            01                              36     19
             COHEN ACT
11-70011    THE STATUS OF THE U.S. DEPARTMENT OF EDUCATION’S READINESS FOR    DC     03/31/98                      *           ***                              36     20
             YEAR 2000
17-70002    U.S. DEPARTMENT OF EDUCATION’S FISCAL YEAR 1997 FINANCIAL         DC     05/29/98                      *           ***                              37     13
             STATEMENTS AND ACCOMPANYING NOTES
07-80007    AUDIT OF RATHEON E-SYSTEMS, FALLS CHURCH, VA, DIRECTLOAN          VA     07\10\98             2,782,218            ***                              37     44
             SERVICING CONTRACT CLOSE-OUT PROPOSAL DATED FEBRUARY 20, 1998
11-80013    REVIEW OF GAPS SECURITY                                           DC     09/30/98                      *           ***                              37     12


OFFICE OF THE DEPUTY SECRETARY

17-70007    MOVING TOWARDS A RESULTS-ORIENTED ORGANIZATION:                   DC     09/24/98                      *           ***                              37     14
             A REPORT ON ED’S IMPLEMENTATION OF THE RESULTS ACT


OFFICE OF BILINGUAL EDUCATION AND MINORITY LANGUAGES AFFAIRS

04-60152    REVIEW OF MONITORING CONTROLS USED TO ENSURE FULFILLMENT OF       DC     06/30/97                      *           ***                              35    17
             TITLE VII BILINGUAL EDUCATION GRANT PROGRAM OBJECTIVES




NOTES                                                                          REASON CODES FOR REPORTS OVER SIX MONTHS OLD
*   Non-monetary findings only                                                 01 - Administrative delays
** Not individually written up                                                 02 - Delay in receiving auditee comments or additional information fromauditee
*** Information not provided by program office.                                03 - Delay in receiving additional information from non-federal auditor.
                                                                               04 - Lack of staff
                                                                               05 - Cooperative Audit Resolution and Oversight Initiative (CAROI) pilot state
                                       INVESTIGATION SERVICES
                                   CUMULATIVE PROSECUTIVE ACTIONS

   DEFENDANT/                              INDICTED/                          CIVIL    ADJUDICATED
     SUBJECT                          INFORMATION      CONVICTED   SENTENCED MATTERS     VALUE


        SCHOOL CASES
Bates, Garrit                                   O           X            X                $164,894
Berger, Benjamin                                O           X
                        Elbaum, Jacob           O           X
                      Goldstein, David          O           X
                         Stern, Kalmen          O           X
Boorman, Guyla Jane                             O           O            X                  $1,907
Burgos-Rodriquez, Cristino                      O           O            X                $180,351
Cefaratti, Frank                                O           X
                Cefaratti - Diaz, Carole        X
                        Malavet, Gloria         X           X
                       Perez, Modesta           X           X
Cline, Charlotte                                O           O            X                 $1,004
Sosa Funes, Jose                                X
                       Kuhn, Katherine          X
                 Emco Investment, Inc           X
                  Emory College of PR           X
                              Tulip, Inc        X
Jensen, Susan                                   X           X
Lybrand, Shirley                                O           O            X                 $5,592
Nelson, Steven                                  X
                      Nelson, Frances           X

Purdie, Beverly                                 O           O            X                $117,729
Reese, Robbie                                   X           X            X
Roth, Charles                                   O           O            X


Sealed Case                                     O           X            X                $1,130,883




         g = Action reported in previous period.
         X = Action reported in current period.
                                     INVESTIGATION SERVICES
                                 CUMULATIVE PROSECUTIVE ACTIONS

    DEFENDANT/                        INDICTED/                             CIVIL       ADJUDICATED
      SUBJECT                       INFORMATION     CONVICTED    SENTENCED MATTERS        VALUE


                                                        Total Value                        $1,602,330
                                                      School Cases:


    CONSULTANT CASES and
        CLIENT CASES

Larkin, Denise                                 O          O            X                   $1,700,000
Molitor, Michael                               X          X
Amey, Tisha                                                                         X       $1,800
Bean, Trisha                                                                        X       $8,610
Crump, Christina                                                                    X       $3,450
Drury, Sarah                                                                        X       $4,000
Dulac, Sean                                                                         X       $8,193
Figueroa, Karla                                                                     X       $2,000
Franklin, Allisha                                                                   X       $20,475
Garcia, Patrick                                                                     X       $5,760
Gorman, Jason                                                                       X       $1,720
Gorman, Julie                                                                       X       $3,280
Heath, Corrience                                                                    X       $3,100
Holmes, Ryan                                                                        X       $6,445
Hughes, Sammie                                                                      X       $9,920
Irwin, Charles                                                                      X       $8,070
Jones, Asenath                                                                      X       $28,680
Little, Chris                                                                       X       $4,810
McGraw, Shannon                                                                     X       $6,200
Morrison, Melanie                                                                   X       $5,510
Morrison, Steven                                                                    X       $2,690
Moyer, Brooke                                                                       X       $4,140
Moyer, Matthew                                                                      X       $1,832
Neal, Amy                                                                           X       $6,160


          g = Action reported in previous period.
          X = Action reported in current period.
                                    INVESTIGATION SERVICES
                                CUMULATIVE PROSECUTIVE ACTIONS

   DEFENDANT/                           INDICTED/                           CIVIL       ADJUDICATED
     SUBJECT                       INFORMATION      CONVICTED    SENTENCED MATTERS        VALUE
Perkins, Tamiko                                                                     X       $13,000
Phillips, Nathan                                                                    X       $1,000
Quire, Beverly                                                                      X       $9,080
Richards, Janell                                                                    X       $14,355
Runzi, Jennifer                                                                     X       $4,600
Simmers, Adam                                                                       X       $2,500
Sledge, Diana                                                                       X       $4,920
Stanley, Marisa                                                                     X       $3,400
Todd, Regina                                                                        X       $6,705
Wilson, Trent                                                                       X       $4,000


                                                        Total Value                        $1,910,405
                                                        Consultant
                                                            Cases:


FOREIGN STUDY FFEL PROJECT
Doyley, Robert                                O           X            X                    $70,477
                    Doyley, Rochelle          O           X            X                    $17,760
Glenn, Lamart                                 X
                     Brandy, Howard           X
                    Dalton, Frederick         X
Metellus, Jacques                             O           X
Roberson, Gail                                O           X            X                    $18,500


                                                        Total Value                        $106,737
                                                      Foreign Study
                                                       FFEL Cases:


         NON SFA CASES

Bad Wound, John                               O           X            X                   $2,657,032
Banuelos, Daniel                              O           O            X                   $114,470



         g = Action reported in previous period.
         X = Action reported in current period.
                                     INVESTIGATION SERVICES
                                 CUMULATIVE PROSECUTIVE ACTIONS

   DEFENDANT/                            INDICTED/                            CIVIL    ADJUDICATED
      SUBJECT                       INFORMATION      CONVICTED     SENTENCED MATTERS     VALUE
LaBianca, Daniel                               X            X


                                                     Total Value Non-
                                                          SFA Cases:                      $2,771,502


      SFA RECIPIENT CASES
Alams, Humphrey                                X
Anderson, Derek                                X
Bearpaw, Theresa                               O            O            X                  $37,061
Braxton, Tamika                                X            X
Easton, Michael                                O            X
Griffin, Ricky                                 O            O            X                  $16,000
Nwoke, Anthony J.                              O            X            X                  $9,426
Pantera, James                                 X            X
Perrin, Gloria                                 X
Qurtom, Helmy                                  O            O            X                 $118,932
                     Kurtom, Sawsan            O            O            X                     --
Rafca, Rafael                                  O            O            X                 $268,000
                      Moran, Edgardo           X            X
                          Silva, Kary          O            X
                       Valdes, Leticia         O            O            X                  $9,193
Smith, Laura                                   O            X            X                  $35,947
                      Lee, Roosevelt           O            O            X                     --
Tshimanga Kolanga, Jean-Claude                 O            X
                 Tshimanga, Casondra           O            X
Wells, Kenneth                                 X


                                                     Total Value SFA
                                                     Recipient
                                                     Cases:                                $494,559



          g = Action reported in previous period.
          X = Action reported in current period.
                                    INVESTIGATION SERVICES
                                CUMULATIVE PROSECUTIVE ACTIONS

   DEFENDANT/                        INDICTED/                                CIVIL       ADJUDICATED
     SUBJECT                       INFORMATION     CONVICTED       SENTENCED MATTERS        VALUE
          CIVIL CASES
Bishop, James, etal                                                                   X       $250,000
Jordan, Tonya                                                                         X       $18,349
Rasheed, Adnan                                                                        X        $8,680
State University of West Georgia                                                      X       $21,231
Whitney National Bank                                                                 X      $6,105,106


                                                   Total Value Civil                         $6,403,366
                                                   Cases:


       EMPLOYEE CASES

Cole, Loyce                                   X            X             X                    $13,050
Warren, Jacqueline                            O            X             X                    $23,181



                                                   Total Value
                                                   Employee                                   $36,231
                                                   Cases:




         g = Action reported in previous period.
         X = Action reported in current period.
                                              STATISTICAL PROFILE
                                         October 1, 1998 — March 31, 1999




OIG AUDIT REPORTS ISSUED .....................................................................................................................12
Questioned Costs ...................................................................................................... $ 6,656,342
Unsupported Costs....................................................................................................$            0
Recommendations for Better Use of Funds................................................................$                          0

OTHER OIG PRODUCTS (Action Memoranda, Information Reports,
 Special Studies, and Inspections) ............................................................................................29

OIG AUDIT REPORTS RESOLVED BY PROGRAM MANAGERS ................................................................6
Questioned Costs Sustained. .................................................................................... .$ 2,599,709
Unsupported Costs Sustained....................................................................................$       36,138
Additional Disallowances Identified by Program Managers ........................................$                           0
Management Commitment to Better Use of Funds.....................................................$                          0

INVESTIGATIVE CASE ACTIVITY
Cases Opened ........................................................................................................................120
Cases Closed...........................................................................................................................111
Cases Active at End of Period ............................................................................................... 3171
Cases Referred for Prosecution .................................................................................................44
— Accepted ..............................................................................................................................31
— Declined................................................................................................................................13

INVESTIGATION RESULTS
Indictments/Informations......................................................................................................... 282
Convictions/Pleas......................................................................................................................33
Fines Ordered.............................................................................................................$      57,837
Restitutions Ordered .................................................................................................. $ 6,709,254
Civil Settlements/Judgments (number)..................................................................................... 633
Civil Settlements .......................................................................................................$ 6,718,2014
Civil Judgments.........................................................................................................$ 101,2825
Collections ...............................................................................................................$ 6,963,6266


1
  Includes 9 cases that were not reported in our last Semiannual Report.
2
  Includes 2 actions that were not reported in our last Semiannual Report.
3
  Included 22 actions that were not reported in our last Semiannual Report.
4
  Includes $132,453 not reported in our last Semiannual Report.
5
  Includes $48,858 not reported in our last Semiannual Report.
6
  Includes $48,858 not reported in our last Semiannual Report.


                                                                      50
